<html>
<title> - OVERSIGHT HEARING ON EXPLORING SOLUTIONS TO REDUCE RISKS OF CATASTROPHIC WILDFIRE AND IMPROVE RESILIENCY OF NATIONAL FORESTS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


   EXPLORING SOLUTIONS TO REDUCE RISKS OF CATASTROPHIC WILDFIRE AND 
                IMPROVE RESILIENCY OF NATIONAL FORESTS

=======================================================================

                           OVERSIGHT HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                     Wednesday, September 27, 2017

                               __________

                           Serial No. 115-23

                               __________

       Printed for the use of the Committee on Natural Resources
       
       
 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
          
                               __________
                                

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
27-027 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3c5b4c537c5f494f485459504c125f535112">[email&#160;protected]</a>          
          
          
          
          
      

                     COMMITTEE ON NATURAL RESOURCES

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
  Chairman Emeritus                  Madeleine Z. Bordallo, GU
Louie Gohmert, TX                    Jim Costa, CA
  Vice Chairman                      Gregorio Kilili Camacho Sablan, 
Doug Lamborn, CO                         CNMI
Robert J. Wittman, VA                Niki Tsongas, MA
Tom McClintock, CA                   Jared Huffman, CA
Stevan Pearce, NM                      Vice Ranking Member
Glenn Thompson, PA                   Alan S. Lowenthal, CA
Paul A. Gosar, AZ                    Donald S. Beyer, Jr., VA
Raul R. Labrador, ID                 Norma J. Torres, CA
Scott R. Tipton, CO                  Ruben Gallego, AZ
Doug LaMalfa, CA                     Colleen Hanabusa, HI
Jeff Denham, CA                      Nanette Diaz Barragan, CA
Paul Cook, CA                        Darren Soto, FL
Bruce Westerman, AR                  A. Donald McEachin, VA
Garret Graves, LA                    Anthony G. Brown, MD
Jody B. Hice, GA                     Wm. Lacy Clay, MO
Aumua Amata Coleman Radewagen, AS    Jimmy Gomez, CA
Darin LaHood, IL
Daniel Webster, FL
Jack Bergman, MI
Liz Cheney, WY
Mike Johnson, LA
Jenniffer Gonzalez-Colon, PR
Greg Gianforte, MT

                      Cody Stewart, Chief of Staff
                      Lisa Pittman, Chief Counsel
                David Watkins, Democratic Staff Director
                                 
                                 
                                 ------                                

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                     BRUCE WESTERMAN, AR, Chairman
           A. DONALD McEACHIN, VA, Ranking Democratic Member

Louie Gohmert, TX                    Ruben Gallego, AZ
Raul R. Labrador, ID                 Jared Huffman, CA
Aumua Amata Coleman Radewagen, AS    Darren Soto, FL
Mike Johnson, LA                     Wm. Lacy Clay, MO
  Vice Chairman                      Raul M. Grijalva, AZ, ex officio
Jenniffer Gonzalez-Colon, PR
Rob Bishop, UT, ex officio
                                ------                                
                                
                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, September 27, 2017....................     1

Statement of Members:

    McEachin, Hon. A. Donald, a Representative in Congress from 
      the Commonwealth of Virginia...............................     4
        Prepared statement of....................................     5
    Westerman, Hon. Bruce, a Representative in Congress from the 
      State of Arkansas..........................................     1
        Prepared statement of....................................     3

Statement of Witnesses:

    Chilcott, Hon. Greg, Commissioner, Ravalli County, Montana...    16
        Prepared statement of....................................    18
    DellaSala, Dominick A., Chief Scientist, Geos Institute, 
      Ashland, Oregon............................................    24
        Prepared statement of....................................    25
        Questions submitted for the record.......................    35
    Fite, Lawson, General Counsel, American Forest Resource 
      Council, Portland, Oregon..................................    51
        Prepared statement of....................................    52
    Rigdon, Philip, President, Intertribal Timber Council, Yakama 
      Nation, Toppenish, Washington..............................     7
        Prepared statement of....................................     8

Additional Materials Submitted for the Record:

    Submissions for the Record by Representative Westerman

        Humphries, Rebecca A., Chief Executive Officer, National 
          Wild Turkey Federation, Letter to Chairman Bishop and 
          Ranking Member Grijalva, dated June 26, 2017...........    71
        Humphries, Rebecca A., Chief Executive Officer, National 
          Wild Turkey Federation, Letter to Chairman Westerman, 
          dated September 27, 2017...............................    72

    List of documents submitted for the record retained in the 
      Committee's official files.................................    73
                                     


 
      OVERSIGHT HEARING ON EXPLORING SOLUTIONS TO REDUCE RISKS OF 
    CATASTROPHIC WILDFIRE AND IMPROVE RESILIENCY OF NATIONAL FORESTS

                              ----------                              


                     Wednesday, September 27, 2017

                     U.S. House of Representatives

              Subcommittee on Oversight and Investigations

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 3:01 p.m., in 
room 1334, Longworth House Office Building, Hon. Bruce 
Westerman [Chairman of the Subcommittee] presiding.
    Present: Representatives Westerman, Labrador, Radewagen, 
Johnson, McEachin, and Clay.
    Also Present: Representatives McClintock, Gosar, Gianforte, 
and Gomez.
    Mr. Westerman. The Subcommittee on Oversight and 
Investigations will come to order. The Subcommittee is meeting 
today to hear testimony on exploring solutions to reduce risks 
of catastrophic wildfire and improve resiliency of national 
forests.
    I ask unanimous consent that the gentleman from California, 
Mr. McClintock, the gentleman from Arizona, Mr. Gosar, the 
gentleman from Montana, Mr. Gianforte, and the gentleman from 
California, Mr. Gomez, be allowed to sit with the Subcommittee 
and participate in the hearing.
    Without objection, so ordered.
    Under Committee Rule 4(f), any oral opening statements at 
hearings are limited to the Chairman, the Ranking Minority 
Member, and the Vice Chair. This will allow us to hear from our 
witnesses sooner and help Members keep to their schedules.
    Therefore, I ask unanimous consent that all other Members' 
opening statements be made part of the hearing record if they 
are submitted to the Subcommittee Clerk by 5:00 p.m. today.
    Without objection, so ordered.

  STATEMENT OF THE HON. BRUCE WESTERMAN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ARKANSAS

    Mr. Westerman. Today, we will discuss one of the most 
serious threats currently facing our country--catastrophic 
wildfire. At a time when national attention is focused on the 
disastrous effects of multiple hurricanes, more than 8\1/2\ 
million acres of America has been ravaged by almost 49,000 
fires this year.
    Like the recent hurricanes, these fires have also destroyed 
homes, taken lives, threatened treasured sites, and cost our 
country billions of dollars. In fact, this will be the most 
expensive year on record. Wildfire suppression costs already 
exceed $2 billion for the U.S. Forest Service.
    The Forest Service has reported that their firefighting 
activities already consumed $300 million that they had to 
transfer from other accounts for fire suppression. It is 
estimated that the Agency will need to borrow up to a 
staggering $600 million before the end of the fiscal year. 
Simply speaking, the Agency's mission of managing our national 
forests is threatened when firefighting consumes so much of its 
time and resources.
    This problem will only intensify unless we act now. Fifty-
eight million acres of our National Forest System are at a high 
risk of ecologically destructive wildland fire. According to 
the U.S. Department of Agriculture's Inspector General, 
hazardous fuels are estimated to be accumulating at three times 
the rate at which they can be treated.
    It is clear that unsafe levels of hazardous fuels have 
accumulated in our Federal forests. Many are aware of the dire 
need of active management before more catastrophic fires strike 
and forest health continues to deteriorate. One Forest Service 
ecologist recently warned that forest fuels are at powder keg 
levels.
    Without a change of course, forest fires will continue to 
destroy our valuable natural resources, devastate our 
communities, and overwhelm our Federal agencies.
    Today's hearing will explore solutions to reduce the 
wildfire threat. We will discuss ways in which active 
management can boost forest health, and how the Forest Service 
can effectively partner with other stakeholders who share an 
interest in more resilient forest.
    Fuels reduction activities, such as thinning, offer 
multiple benefits to both our national forests and surrounding 
communities. These treatments have proven effective at reducing 
excess trees and vegetation and, therefore, minimizing fires 
that reach disastrous proportions.
    There is also an economic benefit to thinning. Forest 
products removed during these projects can generate revenue 
through commercial timber sales, which can offset the cost of 
other forest management activities and boost local economies.
    As wildfire suppression costs over-run the Forest Service's 
budget, thinning provides an economically feasible solution to 
our wildfire crisis and forest management challenges.
    Thinning can also increase the biodiversity of forests. For 
example, thinning and controlled burning projects contributed 
to successful breeding for red-cockaded woodpeckers in the 
southern United States. Thinning can also increase available 
surface water, thereby benefiting salmon habitats, reservoirs, 
and agriculture.
    It is imperative that we identify and remove barriers to 
implementing critical risk reduction projects, actions that my 
bill, H.R. 2936, also known as the Resilient Federal Forests 
Act of 2017, seeks to address.
    Last, it is important to acknowledge the need for the 
Forest Service to engage other stakeholders in combating our 
wildfire problem. Today, we will also examine ways to improve 
cooperation between the Forest Service and other partners to 
promote more efficient and effective forest management. The 
Forest Service has several tools at its disposal to facilitate 
thinning and fuels reduction activities with the help of 
partners such as counties, states, tribes, and the private 
sector. These partnerships should be more widely leveraged to 
protect the safety and promote the prosperity of all 
stakeholders.
    There is simply no excuse for allowing millions of 
Americans to remain in harm's way as our forests become more 
overgrown and the destructive impacts of catastrophic fire 
continue to spread. Irreplaceable natural resources and human 
lives are at stake, and we must focus on immediate solutions 
that are available.
    I thank our witnesses for their attendance today as we work 
together to promote forest health and protect our citizens from 
the growing wildfire threat. I look forward to your testimony.

    [The prepared statement of Mr. Westerman follows:]
Prepared Statement of the Hon. Bruce Westerman, Chairman, Subcommittee 
                    on Oversight and Investigations
    Today, we will discuss one of the most serious threats currently 
facing our country--catastrophic wildfire. At a time when national 
attention has focused on the disastrous effects of multiple hurricanes, 
more than 8\1/2\ million acres of America has been ravaged by almost 
49,000 fires this year.
    Like the recent hurricanes, these fires have also destroyed homes, 
taken lives, threatened treasured sites, and cost our country billions 
of dollars. In fact, this will be the most expensive year on record. 
Wildfire suppression costs already exceed $2 billion for the U.S. 
Forest Service.
    The Forest Service has reported that their firefighting activities 
already consumed $300 million that they had to transfer from other 
accounts for fire suppression. It is estimated that the agency will 
need to borrow up to a staggering $600 million before the end of the 
fiscal year. Simply speaking, the agency's mission of managing our 
national forests is threatened when fighting fires consumes so much of 
its time and resources.
    This problem will only intensify unless we act now. Fifty-eight 
million acres of our national forest system are at a high risk of 
ecologically destructive wildland fire. According to the U.S. 
Department of Agriculture's Inspector General, hazardous fuels are 
estimated to be accumulating at three times the rate at which they can 
be treated. It is clear that unsafe levels of hazardous fuels have 
accumulated in our Federal forests. Many are aware of the dire need of 
active management before more catastrophic fires strike, and forest 
health continues to deteriorate. One Forest Service ecologist recently 
warned that forest fuels are at ``powder keg levels.''
    Without a change of course, forest fires will continue to destroy 
our valuable natural resources, devastate our communities, and 
overwhelm our Federal agencies.
    Today's hearing will explore solutions to reduce the wildfire 
threat. We will discuss ways in which active management can boost 
forest health, and how the Forest Service can effectively partner with 
other stakeholders who share an interest in more resilient forests.
    Fuels reduction activities such as thinning offer multiple benefits 
to both our national forests and surrounding communities. These 
treatments have proven effective at reducing excess trees and 
vegetation and therefore, minimize fires reaching disastrous 
proportions.
    There is also an economic benefit to thinning. Forest products 
removed during these projects can generate revenue through commercial 
timber sales which can offset the costs of other forest management 
activities and boost local economies. As wildfire suppression costs 
over-run the Forest Service's budget, thinning provides an economically 
feasible solution to our wildfire crisis and forest management 
challenges.
    Thinning can also increase the biodiversity of forests. For 
example, thinning and controlled burning projects contributed to 
successful breeding for red-cockaded woodpeckers in the southern United 
States. Thinning also can increase available surface water, thereby 
benefiting salmon habitats, reservoirs, and agriculture.
    It is imperative that we identify and remove barriers to 
implementing critical risk reduction projects--actions my bill, H.R. 
2936, also known as the Resilient Federal Forests Act of 2017, seeks to 
address.
    Last, it is important to acknowledge the need for the Forest 
Service to engage other stakeholders in combating our wildfire problem. 
Today, we will also examine ways to improve cooperation between the 
Forest Service and other partners to promote more efficient and 
effective forest management. The Forest Service has several tools at 
its disposal to facilitate thinning and fuels reduction activities with 
the help of partners such as, counties, states, tribes, and the private 
sector. These partnerships should be more widely leveraged to protect 
the safety and promote the prosperity of all stakeholders.
    There is simply no excuse for allowing millions of Americans to 
remain in harm's way as our forests become more overgrown and the 
destructive impacts of catastrophic fire continue to spread. 
Irreplaceable natural resources and human lives are at stake, and we 
must focus on the immediate solutions available.
    I thank our witnesses for their attendance today as we work 
together to promote forest health and protect our citizens from the 
growing wildfire threat. I look forward to your testimony, and I now 
recognize the Ranking Member of the Subcommittee, Mr. McEachin of 
Virginia, for 5 minutes.

                                 ______
                                 

    Mr. Westerman. I now recognize the Ranking Member of the 
Subcommittee, Mr. McEachin of Virginia, for 5 minutes.

 STATEMENT OF THE HON. A. DONALD McEACHIN, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF VIRGINIA

    Mr. McEachin. Thank you, Mr. Chairman.
    And I want to thank each of our witnesses for taking the 
time to be here today.
    Before we get into the substance of today's hearing, I 
would like to express my support for our fellow Americans in 
the U.S. Virgin Islands and Puerto Rico after incurring severe 
hurricane damage. I have talked with many of my colleagues, 
watched the devastation on TV, and read reports that all 
indicate the need for major and immediate assistance.
    As the committee of jurisdiction over the territories, we 
have a responsibility to hasten their recovery. It is 
imperative that we work across the aisle to make that happen.
    Now, I would like to discuss the topic at hand. This 
hearing is more of the same. It is the same topic. This is the 
fourth hearing on wildfires and forest management in the past 5 
months, and the eighth in the past two Congresses.
    It is the same people. Two of the Majority's witnesses have 
already testified on this topic. One of them has been kind 
enough to testify four times in recent years. I think recycling 
is a good idea, but not like this.
    Here is the kicker--during all this time we used to discuss 
the problem, the Majority simply refuses to talk about the 
primary driver of forest fires: climate change.
    According to a National Academies of Science report, more 
than half of the increase in area burned by wildfire in the 
western United States can be attributed to climate change.
    Since the 1970s, the average annual temperature in the 
western states has increased by 2 degrees. The fire season has 
increased by over 2 months. Snow packs are now melting 2 to 4 
weeks earlier in the West. Drought has gripped large portions 
of the West making conditions drier.
    We were warned a long time ago. The Intergovernmental Panel 
on Climate Change predicted that wildfires would increase in 
frequency and intensity as the atmosphere warmed. Another major 
factor affecting wildfire risks is the growth of American homes 
and communities into areas adjacent to forests, known as the 
wildland urban interface.
    Since 1990, over 60 percent of U.S. homes were built in 
these areas. As our communities grow into these areas, the risk 
and expense of fighting fires grows. This Committee should be 
spending its time trying to reduce the effects of climate 
change, and preparing for the atmospheric warming that is 
already in the pipeline.
    Instead, the answers we hear are to weaken our bedrock 
environmental protections, deny our citizens the right to hold 
the government accountable when it fails to obey the law, give 
the timber industry more unfettered access to public lands, and 
let the states, instead of the Federal Government, handle 
fires.
    On the latter point, a new report from the Center for 
Western Priorities shows that fire risk is the same on state 
and Federal lands overall. In fact, some states have a higher 
risk.
    The idea that citizen-driven accountability for government 
is causing wildfires has been thoroughly debunked by this 
Committee, including, most recently, in this very Subcommittee.
    Unrestricted commercial logging will not curb carbon 
pollution or make our communities safe. We cannot log our way 
to wildfire control. Catastrophic forest fires can pose a 
dangerous threat to the safety of our people and infrastructure 
across the country.
    It is time to get serious about addressing them. It is time 
to talk about climate change. I yield back.

    [The prepared statement of Mr. McEachin follows:]
  Prepared Statement of the Hon. A. Donald McEachin, Ranking Member, 
              Subcommittee on Oversight and Investigations
    Thank you, Mr. Chairman. Thank you to each of our witnesses for 
taking the time to be here today.
    Before we get into the substance of today's hearing, I would like 
to express my support for our fellow Americans in the U.S. Virgin 
Islands and Puerto Rico after incurring severe hurricane damage. I have 
talked with my colleagues, watched the devastation on TV, and read 
reports that all indicate the need for major and immediate assistance.
    As the committee of jurisdiction over the territories, we have a 
responsibility to hasten their recovery. It is imperative that we work 
across the aisle to make that happen.
    Now, I would like to discuss the topic at hand. This hearing is 
more of the same. It is the same topic. This is the fourth hearing on 
wildfires and forest management in the past 5 months, and the eighth in 
the past two Congresses.
    It is the same people. Two of the Majority's witnesses have already 
testified on this topic. One has been kind enough to testify four times 
in recent years. I encourage recycling, but NOT LIKE THIS.
    Here is the kicker--during all this time used to discuss the 
problem, the Majority simply refuses to talk about the primary driver 
of forest fires: climate change.
    According to a National Academies of Science report, more than half 
the increase in area burned by wildfire in the western United States 
can be attributed to climate change.
    Since the 1970s, the average annual temperature in western states 
has increased by 2 degrees. The fire season has increased by over 2 
months. Snowpacks are now melting 2 to 4 weeks earlier in the West. 
Drought has gripped large portions of the West, making conditions 
drier.
    We were warned a long time ago. The Intergovernmental Panel on 
Climate Change predicted that wildfires would increase in frequency and 
intensity as the atmosphere warmed. Another major factor affecting 
wildfire risks is the growth of American homes and communities into 
areas adjacent to forests, known as the wildland urban interface.
    Since 1990, over 60 percent of U.S. homes were built in these 
areas. As our communities grow in these areas, the risk and expense of 
fighting fires grows. This Committee should be spending its time trying 
to reduce the effects of climate change, and preparing for the 
atmospheric warming that is already in the pipeline.
    Instead, the answers we hear are to weaken our bedrock 
environmental protections, deny our citizens the right to hold the 
government accountable when it fails to obey the law, give the timber 
industry more unfettered access to public lands, and let the states 
instead of the Federal Government handle fires.
    On the latter point, a new report from the Center for Western 
Priorities shows that fire risk is the same on state and Federal lands 
overall. In fact some states have a higher risk.
    The idea that citizen-driven accountability for governments is 
causing wildfires has been thoroughly debunked by this Committee, 
including, most recently, in this very Subcommittee.
    Unrestricted commercial logging will not curb carbon pollution or 
make our communities safe. We cannot log our way to wildfire control. 
Catastrophic forest fires can pose a dangerous threat to the safety of 
our people and infrastructure, across the country.
    It is time to get serious about addressing them. It is time to talk 
about climate change. I yield back.

                                 ______
                                 

    Mr. Westerman. The gentleman yields back. I appreciate the 
Ranking Member pointing out the importance and the emphasis 
that has been put on wildfires, not only in this Committee, but 
also I think the Senate had a hearing this morning. And I 
believe the Energy and Commerce Committee has a hearing 
scheduled on it. It is a major problem facing our country, and 
I am glad that we are continuing to focus on that, and that we 
have such a fine panel of witnesses with us today.
    I will now introduce our witnesses: Mr. Philip Rigdon is 
the president of the Intertribal Timber Council of the Yakama 
Nation. Glad to have you with us today, Mr. Rigdon.
    And I am going to yield 30 seconds to the gentleman from 
Montana for a brief introduction of our witness from Montana.
    Mr. Gianforte. Great. Thank you, Mr. Chairman, Ranking 
Member, and members of the Committee. I am pleased to introduce 
Commissioner Greg Chilcott. Commissioner Chilcott has been a 
member of the Ravalli County Montana Board of Commissioners 
since 2003.
    Prior to his election as a County Commissioner, he held 
positions in both the public and private sector. He has deep 
roots in Montana in the Stevensville area that date back to the 
1860s.
    In addition to his service in Ravalli County, he currently 
serves as the Chairman of the Montana Coalition of Forest 
Counties and the Chairman of the Montana Association of Public 
Lands Committee.
    I have known Commissioner Chilcott for a number of years. I 
have visited forest fires with him, and I can attest personally 
to his expertise in this area. I want to thank him for his 
testimony today.
    Mr. Westerman. Thank you.
    Dr. Dominick DellaSala is the chief scientist for the Geos 
Institute; and Mr. Lawson Fite is the general counsel for the 
American Forest Resource Council.
    Let me remind the witnesses that under our Committee Rules, 
they must limit their oral statements to 5 minutes, but their 
entire written statement will appear in the hearing record.
    Our microphones are not automatic. You will need to press 
the ``on'' button when you begin your testimony. When you 
begin, the timer light will be green for 4 minutes. Then the 
yellow light will come on reminding you that you have 1 minute. 
Your time will have expired when the red light comes on, and I 
will ask you to please complete your statement.
    I will also allow the entire panel to testify before 
questioning the witnesses.
    The Chair now recognizes Mr. Rigdon for his testimony.

   STATEMENT OF PHILIP RIGDON, PRESIDENT, INTERTRIBAL TIMBER 
         COUNCIL, YAKAMA NATION, TOPPENISH, WASHINGTON

    Mr. Rigdon. Thank you, Mr. Chairman and members of the 
Committee.
    The Intertribal Timber Council represents more than 60 
tribes and organizations across the country. My testimony can 
be summarized in one sentence: Indian forests are able to 
prepare for and respond to fires better than other Federal 
lands, at a fraction of the cost.
    Of 334 reservations in 36 states, the United States holds 
18.6 million acres of forests and woodlands in trust for the 
benefit of tribes. We manage these lands holistically, 
sustaining a triple bottom line approach--ecological, economic, 
and cultural.
    We care for these lands through active management and 
aggressively treating problems such as wildfire and disease 
before they can reach disastrous proportions. Indian tribes are 
neighbors to Federal forests. Many tribes retain and exercise 
treaty rights and reserved rights on these lands to hunt and 
fish, and gather foods and medicines. Unhealthy forests impact 
these activities on Federal lands, as well as on our own lands.
    Our national forests are being lost by the failure to 
undertake active management. Tribes can offer Federal forest 
managers new tools and holistic approaches badly needed to 
restore these forests' health.
    First, tribes are able to accomplish more in their forests 
with far less funding than other Federal land managers. On a 
per-acre basis, tribes receive about one-third of the funding 
as compared to the Forest Service.
    Using my own reservation as an example, the Yakama Nation 
is funded for fire preparedness at $0.57 per acre, while the 
adjacent Gifford Pinchot National Forest is funded at $1.18 per 
acre; the Mount Hood National Forest is $2.11 an acre; and the 
Columbia Gorge National Scenic Area, which just experienced a 
big fire right now, is $2.83 per acre, nearly five times what 
the Yakama receive on the reservation. This is not a 
sustainable approach, and I thank the House of Representatives 
for steadily increasing funding for BIA forestry.
    Even with inadequate funding, tribes are more agile than 
other Federal managers to prepare our force for fire and 
recover after fire. Let's start with the before wildfire. 
Tribes are effective in responding to bugs, disease, and 
overstocking. I would like to show you exactly what this looks 
like.
    On the Yakama Reservation, we experienced a budworm 
infestation that also affected Forest Service land. The Tribe 
was more aggressive than the Forest Service in responding using 
timber sales to treat 20,000 acres of the budworm infestation a 
year. We also used a biological control agent on another 97,000 
acres to control mortality.
    Here you can see some of the treatments implemented on our 
land. The next slide shows what it looks like after that 
treatment.
    On the next slide that we have, here is an example showing 
the difference between tribal and Forest Service treatments. On 
the left is the Mescalero Apache Tribe in New Mexico.
    The next slide here is a view of tribal fuel breaks to 
protect Mescalero Forest from neighboring Forest Service fire 
threats.
    And the next slide is a closer look at tribal treatments 
next to Forest Service lands.
    And the final slide is an aerial view of that same area. As 
you can see, tribes are on the ground doing the work, 
protecting their lands from fire. We need more of this type of 
activity across the landscape.
    Tribes also respond to fire more effectively. The average 
size of a fire on a BIA-managed land is one-third the size of 
fires on the Forest Service land. On a per-acre basis, 
suppression costs on BIA and BLM lands are one-fifth the cost 
of fires in the Forest Service lands.
    After a fire, tribes are able to respond much quicker than 
other Federal agencies to recover value from the logs and 
recover the land. Tribes generally begin the NEPA process while 
the fire is still burning so that we are ready to recover 
salvageable logs quickly and before they deteriorate.
    We have logs in the mill before other agencies have the 
drafted NEPA documents completed. We should apply tribal 
traditional knowledge and modern forestry to other Federal 
lands. The ITC supports the Resilient Federal Forestry Act that 
is sponsored by Chairman Westerman. The legislation would give 
other Federal land managers new tools to work with tribes and 
accomplish more to reduce the threat to wildfire.
    Thank you for inviting me to appear today and for including 
tribes as a part of this solution.

    [The prepared statement of Mr. Rigdon follows:]
   Prepared Statement of Phil Rigdon, President, Intertribal Timber 
                         Council, Yakama Nation
    I am Phil Rigdon, President of the Intertribal Timber Council (ITC) 
and Natural Resource Deputy Director for the Yakama Nation in south-
central Washington State. On the behalf of the ITC and its more than 60 
member tribes and organizations, I appreciate the opportunity to 
discuss how tribes are actively managing Federal forests to reduce the 
risks of wildfire.
    My testimony can be summarized in one sentence: Indian forests are 
able to prepare for and respond to fires better than other Federal 
lands, and at a fraction of the cost.
    On a total of 334 reservations in 36 states, 18.6 million acres of 
forests and woodlands are held in trust by the United States and 
managed for the benefit of Indians. Pursuant to both tribal direction 
and Federal law, our forests must be sustainably managed. Indian tribes 
work in partnership with the Bureau of Indian Affairs and others to 
care for the land. We operate modern, innovative and comprehensive 
natural resource programs premised on connectedness among the land, 
resources, and people. Our approach is holistic--sustaining a ``triple 
bottom line'' of economic, ecological, and cultural values. We care for 
the land through active management and do our utmost to aggressively 
treat problems such as wildfires and insect or disease infestations 
before they can reach disastrous proportions.
    Indian tribes are neighbors to Federal forests and many tribes 
retain and exercise treaty and reserved rights on these lands to hunt 
and fish, gather foods and medicines and for other purposes. Unhealthy 
forests impact these activities on Federal lands, as well as on our own 
land.
    Our national forests are being lost by the failure to undertake 
active management. Tribes can offer Federal forest managers new tools 
and a holistic approach badly needed to restore forest health.
    Unlike Forest Service and BLM forests, Indian forests and their 
management are reviewed by an independent scientific panel every 10 
years. In 2013, the Indian Forest Management Assessment Team (IFMAT) 
released its third report to Congress since 1993. On one hand, the 
IFMAT report shows that tribes are suffering from chronic underfunding 
and challenges created by the loss of leadership and staffing. On the 
other, it also shows significant progress being made on tribal forests.
Funding
    One of the key findings of the IFMAT report is that tribes are able 
to accomplish more in their forests with far less funding than other 
Federal land managers. On a per acre basis, tribes receive about one-
third the funding for forest and wildfire management as the Forest 
Service.
    Using my own reservation as an example, the Yakama Nation is funded 
for fire preparedness at $0.57 per acre per year while the adjacent 
Gifford Pinchot National Forest is funded at $1.18 per acre per year; 
and the Mount Hood National Forest at $2.11; the Columbia Gorge 
National Scenic Area at $2.83--nearly five times what we receive at 
Yakama.
    Unfortunately, the effect of underfunding has very real results. 
Again using the Yakama Nation as an example, we typically have 55 BIA 
forestry positions to help manage our forest. Currently 33 of those are 
vacant because of an insufficient pool of available manpower, BIA 
slowness and budget shortfalls. The tribe has diverted funds from other 
tribal functions to help mitigate that loss, but cannot do so in the 
long term without a decline in either our tribal services or production 
from our forest.
    While Indian forests operate on a shoestring budget, that 
shoestring is about to break. The ITC continues to work with the 
Administration and Congress to increase funding for tribal forest 
management.
Wildfire and Recovery
    Tribes are better able to use scarce resources to prepare our 
forests for fire, recover after fire and ensure the continuity of 
forest resources for generations to come.
    First, tribes understand that a ``let it burn'' approach is not 
always acceptable given the forest health conditions found across our 
Nation's landscape. Instead we are effectively responding to and 
reversing unnatural conditions in the forest. One such example is the 
response to budworm infestation on the Yakama Reservation. Timber sales 
were prioritized as a tool to treat areas that were most severely 
affected by the budworm. Between 1999 and 2003, silvicultural 
treatments were implemented on approximately 20,000 acres of budworm 
habitat per year; 97,000 acres were treated with a biological control 
agent between 1999 and 2001 to control tree mortality.
    The epidemic peaked in 2000 when the budworm defoliated trees on 
206,000 acres. As a result of the Yakama Nation's silvicultural 
treatments, defoliation decreased dramatically. In 2002, only 1,207 
acres were defoliated--a reduction of over 99 percent. Significant 
economic value was recovered from dead and dying trees, and forest 
density has been reduced, promoting forest health and resiliency. While 
such forest health treatments are common on tribal lands, it would be a 
challenge to find similar speed, scope and effectiveness on other 
Federal forests.
    In addition to restoring forest resilience, tribes also respond to 
fires more effectively. While the comparison is not completely 
equivalent, the average size of a fire on BIA-managed lands is one-
third the size of fires on Forest Service land. On a per-acre basis, 
suppression costs on BIA and BLM lands are one-fifth the cost of fires 
on Forest Service lands.
    After fires, tribes are able to respond much quicker than other 
Federal agencies to recover economic value and rehabilitate landscapes. 
However, salvage can come at a devastating financial and ecological 
cost. The 2015 fire season burned 338,110 forest acres on the Colville, 
Yakama, Nez Perce, Spokane and Warm Springs Reservations, damaging 1.2 
billion board feet of tribal trust timber. Of this area, 126,393 acres 
of high and moderate severity burns required reforestation, salvage 
activities, road restoration and maintenance, fence repairs, resources 
for lost fish and wildlife, and risk for non-native invasive species 
and noxious weeds.
    The cost of fire suppression on these 2015 fires exceeded $97 
million. Rehabilitation costs are generally equal to the suppression 
cost, but can be as much as three times higher. The Department of the 
Interior has estimated that the cost of rehabilitation for the five 
subject reservations at $55 million. Only a fraction of the 
rehabilitation costs was made available.
    Tribal interests in healthy landscapes goes beyond reservation 
boundaries. Many tribes maintain off-reservation treaty rights on ceded 
lands that now are National Forests. Catastrophic wildfire on these 
forests directly and negatively impact tribes. Many of these fires burn 
into tribal forests. Even with effective treatments to our own lands, 
severe wildfires from adjacent Federal lands inflict significant damage 
and economic costs to tribal forests.
Ecological Conditions
    Tribal forests must meet--and often exceed--the same goals as other 
Federal lands--all subject to NEPA, ESA and other Federal regulations. 
But tribes are able to manage our lands in harmony, because we live 
with the consequences of our actions. Our ancestors have cared for this 
Nation for thousands of years and will for generations to come. We must 
meet the ``triple bottom line.'' If forests are overcut or devastated 
by wildfire, we lose revenue and jobs, a myriad of ecological benefits 
we rely upon from our forests, and the traditional and cultural 
sustenance our forests have provided since time immemorial. The active 
management tribes employ to realize the ``triple bottom line'' is 
facilitated by three elements:

    <bullet> The fact that our forests held in Federal trust are for 
            the use and benefit of our tribes and their members and, 
            within the scope of the trust, are subject to the direction 
            of our tribal governments,

    <bullet> The Federal law guiding BIA and tribal management of these 
            trust forests, the National Indian Forest Resource 
            Management Act of 1990 (P.L. 101-630, Title III), is the 
            most recent and most flexible Federal forest management 
            statute, and,

    <bullet> The Indian Self-Determination Act (P.L. 93-638) has 
            enabled tribes to assume direct and comprehensive 
            management of our forests.

    While IFMAT certainly identifies possible improvements for tribal 
forest management, our existing successes offer empirical examples that 
can and should be replicated across landscape ownerships, including 
National Forest System lands.
Recommendations
    The ITC supports the ``Resilient Federal Forests Act'' (H.R. 2936), 
sponsored by the Chairman of this Subcommittee, Representative 
Westerman. In particular, we believe that the tribal provisions of that 
bill would give other Federal land managers new tools to work with 
tribes and accomplish more to reduce the threat of wildfire.
    Section 701 of H.R. 2936 improves the Tribal Forest Protection Act 
(TFPA). The TFPA, authorized by Congress 13 years ago, authorized the 
Forest Service and BLM to enter into agreements or contracts with 
tribes to address risks and threats originating on nearby Forest 
Service and BLM administered lands. Although well-intentioned in 
Washington, DC, the TFPA has not met expectations on the ground. Since 
2004, only a handful of TFPA projects have been effectively implemented 
on Forest Service lands. One project proposed by the Tule River Tribe 
took over 10 years to navigate the Forest Service's environmental 
review process.
    Congressman Westerman's bill would improve the TFPA by providing 
timelines for review, approval and implementation of projects on 
Federal land. The bill would also allow tribes to ``638'' contract the 
development and implementation of these projects, much in the way that 
states use Good Neighbor Authority.
    Section 702 would give the Forest Service and BLM a new ability to 
have tribes carry out forest restoration projects in their traditional 
homelands. Improvement of forest health and ecological functions are 
vital to maintain watersheds and fish and wildlife habitat on lands 
that may be subject to federally reserved tribal rights. Acting through 
the Bureau of Indian Affairs, tribes would be able to restore lands 
using the Federal regulatory structure used on Indian trust lands. As 
the Committee has noted on several occasions, tribal forest management 
is able to achieve greater results faster and at lower costs than on 
Federal land. This provision would help bring that successful 
management approach to Federal lands sorely in need of restoration.
Summary
    We believe the Nation would benefit by looking to Indian forestry 
as models of sustainability. We can help move the country forward to 
create a healthier, sustainable future for our forests and natural 
resources. We invite this Committee to come visit Indian forests for a 
firsthand look.

                                 *****

                              ATTACHMENTS

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                                             

    Mr. Westerman. Thank you for your testimony.
    The Chair now recognizes Mr. Chilcott to testify for 5 
minutes.

STATEMENT OF THE HONORABLE GREG CHILCOTT, COMMISSIONER, RAVALLI 
                        COUNTY, MONTANA

    Mr. Chilcott. Thank you, Congressman Gianforte, for your 
kind introduction.
    And thank you, Chairman Westerman, Ranking Member McEachin, 
and Committee members for taking and holding this timely 
hearing as catastrophic wildfires continue to devastate forests 
and communities across this Nation.
    My name is Greg Chilcott, and I have served on the Ravalli 
County Board of Commissioners since 2003. Ravalli County has a 
population of about 41,000 citizens and is located in western 
Montana, bordering Idaho. The Bitterroot National Forest, 
including its three wilderness areas, is predominantly located 
within my county.
    I care deeply about my county, and I want to see it thrive 
and survive, but wildfires severely limit that opportunity. 
This year, over 1 million acres burned across the state of 
Montana at an outrageous cost of $284 million. Tragically, two 
brave firefighters lost their lives combating fires in western 
Montana this season.
    In July, the Meyers fire was started by a lightning strike 
and merged with the Whetstone fire, burning through portions of 
both the Beaverhead-Deer Lodge and the Bitterroot National 
Forest, scorching over 62,000 acres.
    Since then, the Lolo Peak fire has burned nearly 54,000 
acres in the Bitterroot Valley. It has devastated our 
landscape, destroyed wildfire habitat, emitted dense smoke, and 
jeopardized the health and safety of our citizens.
    Our late summer air quality is commonly in the unhealthy or 
hazardous range. Active forest management will help us achieve 
the healthy forests that are essential to clean air and clean 
water. By improving forest health and reducing the dead and 
dying timber, we can re-establish a thriving ecosystem that 
improves the economy and the environment.
    Local, state, and national economies all enjoy the benefits 
of responsible resource use and recreation. Nobody loses when 
our forests are healthy and resilient. Today, as you examine 
Federal policies to help address catastrophic wildfires, I 
would like to offer a few recommendations for your 
consideration.
    First, we need Federal policy that promotes a local 
collaborative consensus-driven decision-making process. 
Counties know that forests can be actively managed in a 
sustainable manner ensuring the health of our Federal lands and 
our local communities.
    Second, NEPA must be reformed. The time frame and process 
for forest management projects should be streamlined and 
inclusive of local government. It often takes years to get 
through a NEPA analysis. At some point, we choose either to 
maintain healthy forests, or risk catastrophic wildfires like 
those we are currently seeing.
    Third, we must address the chronic litigation that is 
hindering our resource management professionals, and remove the 
financial incentives to litigate projects. The legal system is 
being abused by its special interest groups that sue to stop 
any sort of management project.
    These suits can stop a project even if they are 
unsuccessful. And instead of managing resources, many agencies 
are managing paperwork and litigation. Congress can help by 
reforming the Equal Access to Justice Act, to ensure litigants 
are not able to exploit the law or avoid caps on attorneys' 
fees.
    And finally, we need more stewardship contracting to 
improve forest health and reduce wildfire risk. Stewardship 
contracting demonstrates that a market-driven approach to 
forest management projects can achieve land management goals 
and increase production, county support, and our active 
partners in stewardship contracting initiatives.
    Forest revenue sharing payments support critical county 
services such as transportation, infrastructure, and education. 
With the uncertainty surrounding the future of PILT and SRS, 
strengthening our forest revenue-sharing payments with 
counties, including stewardship contracts, is essential for 
promoting forest health and supporting services our citizens 
depend upon.
    In closing, while the causes of catastrophic wildfire are 
complex, maintaining the status quo has exacerbated the present 
forest condition which presents a great risk to both our 
communities and the environment.
    In the entire 20th century, fires in my county burned 
approximately 300,000 acres. However, in only the first 15 
years of this century, almost 900,000 acres were lost to fire. 
Our once vibrant timber economy has been left in shambles, our 
infrastructure decimated, and our scenic beauty scarred for 
decades to come. These trends will continue unless Congress 
acts.
    We can manage our forests in a sound, scientific manner 
that benefits our economy and the environment. We urge you to 
craft viable legislation that can be enacted as soon as 
possible to help address the threat of wildfire.
    Thank you for inviting me.

    [The prepared statement of Mr. Chilcott follows:]
  Prepared Statement of the Hon. Greg Chilcott, Commissioner, Ravalli 
                            County, Montana
    Chairman Westerman and Ranking Member McEachin, thank you for 
holding this hearing to explore solutions to reduce the risk of 
catastrophic wildfire and improve the resiliency of our national 
forests.
    My name is Greg Chilcott, and I have been a member of the Ravalli 
County, Montana Board of Commissioners since 2003. I am a past 
president of the Montana Association of Counties, and currently serve 
as the Chairman of the Montana Coalition of Forest Counties and the 
Vice Chairman of the National Association of Counties' Public Lands 
Steering Committee. My family roots in Ravalli County date back to the 
1860s. Three of my grandchildren currently attend school in Ravalli 
County. I care deeply about my community, and want to see it thrive 
with greater access to recreation on public lands, safe and healthy 
forests, clean and healthy air, and clean water supplies. 
Unfortunately, as we have seen this year, the threat of wildfires in 
the West is a ticking time bomb that will negatively affect the economy 
and environment of places like Ravalli County.
    Counties believe that active forest management will reduce the 
threat of wildfire to our citizens and local communities in the West. 
By reducing the fuel loads on our national forests we can re-establish 
a healthy, thriving ecosystem that improves the economy and the 
environment. Healthy forests are essential to clean water supplies and 
clean air. Biodiversity increases when we manage our forests with 
practical, sound, and scientific practices. Local, state and national 
economies enjoy the benefits of both responsible resource use and 
recreation. Nobody loses when our forests are healthy and resilient.
    We can achieve these goals by increasing commercial timber harvests 
from our national forests, reducing fuel loads through more mechanical 
thinning and controlled burns, reducing the red tape to get through the 
National Environmental Policy Act (NEPA) process, and combating 
frivolous special interest lawsuits that serve only to delay much 
needed management of our National Forest System. Counties urge Members 
of Congress to reach across the aisle, and find common ground to reduce 
the threat catastrophic wildfire to our communities and environment.
About Ravalli County, Montana

    Ravalli County is located in western Montana, bordering Idaho. 
Ravalli County is a rural county with a population of approximately 
41,000, of which 3.9 percent are unemployed. Our poverty rate is higher 
than the state average at 16.8 percent, while the median income is 
nearly $8,000 per year lower than the median income statewide. The 
county makes up approximately 2,400 square miles, and contains the 
majority of the Bitterroot National Forest. The Bitterroot National 
Forest is home to three large wilderness areas: the Anaconda Pintler 
Wilderness, Selway Bitterroot Wilderness, and the Frank Church River of 
No Return Wilderness, which is the second largest wilderness area 
within the National Wilderness Preservation System.
    Ravalli County's government operates under the economic constraint 
that nearly 75 percent of the land within our jurisdictional boundaries 
is exempt from local taxation because it is under Federal management. 
We are caught in limbo when it comes to financing essential county 
government services because the Payments In Lieu of Taxes (PILT) 
program is subject to the annual discretionary appropriations process. 
Additionally, the Secure Rural Schools program has not been 
reauthorized for the past 2 years, leaving counties shortchanged while 
we try to provide important emergency services, like search and rescue 
operations, to visitors to our Nation's public lands. We respectfully 
request that Congress act on both of these vital programs to ensure 
continuity in county budgets in the long term.
    Ravalli County is not only required to provide a broad range of 
local government services with a limited tax base, we must also deal 
with the complications presented by the land management decisions made 
by Federal land management agencies. While we work closely with the 
U.S. Forest Service (USFS) to better manage the resources under their 
control, we are severely constrained in our ability to influence 
outcomes.
    Ravalli County understands the need to protect our natural 
resources. Public lands recreation and tourism contributes to our 
service economy. However, tourism alone will not provide us with the 
diverse economy that is necessary for the long term.
Fire Threat and Impacts on Public Health and the Economy

    The landscape-scale catastrophic wildfires in the national forests 
in Montana and other western states have had a disproportionately large 
impact on the ecological, social and economic life of the County and 
our neighbors. Fire seasons last an average of 78 days longer compared 
to 40 years ago. As the USFS wrote in its 2015 fire budget report, 
``The agency is at a tipping point.'' Every year, wildfire suppression 
eats up a greater share of the USFS budget. This, coupled with the 
approximately $350 million a year the USFS spends complying with 
Federal law, ultimately reduces funding for other forest management 
priorities.
    In 1995, 16 percent of the USFS's annual budget went to fire 
suppression. Today, that number is well north of 50 percent, and by 
2025 will likely amount to two-thirds of their annual budget. Nature 
and poor policy decisions have forced the agency to change its focus. 
In the past, the USFS spent the bulk of its dollars on forest 
management, such as commercial timber harvests and mechanical thinning, 
whereas today, suppression has become its major priority. Today, more 
staff is devoted to fighting fires than managing the forests.
    One major driver of this change in the USFS is abuse of the legal 
system by special interest groups who sue to stop any sort of 
management project on public lands. Litigation can halt a forest 
management project, even if the lawsuit is not successful. Agency 
employees must know not only the laws and regulations themselves, but 
must also understand past judicial precedent that governs the 
implementation of these laws and regulations. This nightmare of red 
tape and regulation forces agencies to create long ``bullet proof'' 
NEPA analyses that can still be held up by frivolous litigation. Rather 
than managing resources, the agency is forced to manage paperwork and 
litigation. This contributes to the unsustainable growth in fuel loads, 
leading to the explosion in catastrophic fires over the past few 
decades.
    Furthermore, the USFS has to pull money from management accounts to 
help combat catastrophic fires, a process known as fire borrowing. This 
further delays much needed timber harvests, mechanical thinning, and 
controlled burns, leaving the USFS with fewer resources to meet its 
management objectives. Solving the problem of fire borrowing must also 
be a component of any action taken by Congress to improve forest 
resiliency.
    Data indicates that in the last century (from 1900-1999), fires 
directly impacting Ravalli County, Montana totaled approximately 
295,340 acres in comparison to the first 15 years of this century 
(2000-2015) when we catastrophically burned 897,208 acres. Our once 
vibrant timber economy has been left in shambles, its infrastructure 
decimated and our scenic beauty scarred for decades to come. Our 
citizens live with severely diminished air quality for weeks or months 
at a time. Both our human and wildlife habitat have been, and will 
continue to be, negatively impacted unless Congress acts to address the 
problem.
    This year, 8.5 million acres have burned nationwide, costing $2.5 
billion to suppress. Over 1 million acres burned in the state of 
Montana alone, with a cost of $284 million to fight these fires. The 
vast majority of the acres burned were caused by lightning strikes. 
Tragically, two firefighters lost their lives in western Montana this 
fire season.
    On July 14, the Meyers fire was started by a lightning strike, and 
merged with the Whetstone fire, burning through portions of both the 
Beaverhead-Deer Lodge and the Bitterroot National Forests in Ravalli, 
Granite, Beaverhead, and Deer Lodge Counties. The fire is currently 90 
percent contained after scorching 62,000 acres of Federal and private 
lands.
    On July 15, the Lolo Peak fire was ignited by a lightning strike. 
Now 90 percent contained, the fire burned nearly 54,000 acres of land, 
primarily within the Bitterroot National Forest. This fire has 
devastated the landscape--destroying wildlife habitat, emitting smoke 
into the air, and jeopardizing the safety of residents.
    Included with this testimony is a set of photographs from 
properties adjacent to the Lolo Peak fire. The photographs are an 
example of how an actively managed forest can stop a catastrophic fire 
in its tracks. The fire spread to these properties, one parcel owned by 
a private citizen and another owned by the state of Montana, where it 
burned out quickly without destroying the strong, healthy trees or 
spreading to the nearby community of Florence. These properties were 
logged, mechanically thinned or had prescribed burns 10-15 years ago. 
This created a lighter fuel load on the ground, and helped the fire to 
burn out before it could reach residents.
    Fires like the Lolo Peak have had a detrimental effect on local 
public health. Thick clouds of smoke billow into the air, and citizens 
breathe it in. This particularly impacts our children, sick people, and 
the elderly. Air quality is commonly in the ``unhealthy'' or 
``hazardous'' range during July and August. Warm air in the daytime 
sometimes helps to lift smoke higher into the atmosphere, but when 
cooler weather sets in at night, the smoke descends back into our 
communities. Unfortunately, being indoors does not help the situation, 
especially when many residents sleep with their windows open in the 
cool mountain air. Montana's Constitution guarantees our citizens a 
right to clean air and clean water--a right taken away by current 
forest management practices. We must address the impacts of 
catastrophic wildfire to guarantee the state constitutional right to 
clean air and clean water.
Opportunities to Address Wildfire Threats

    For the 26 percent of counties across the United States that are 
home to Federal forest lands, the health of our national forests has a 
direct impact on the health and safety of county residents. Healthy 
forests are less prone to disease, insect infestation, and wildfire. 
While the causes of catastrophic wildfire are complex, the status quo 
of inaction has exacerbated present forest conditions, which now 
present a great risk to both communities and the environment. The good 
news is we can manage our forests in a sound, scientific manner that 
benefits our economy and environment. This is not a binary choice. 
There are many recommendations that can help guide more effective 
Federal land management and best practices, including:

    <bullet> Counties believe that active management of Federal lands 
            and forests must be done in a sustainable manner that 
            ensures the health of our Federal lands for generations to 
            come. One way to help ensure a balanced approach to address 
            natural resource management challenges is by promoting 
            locally driven collaborative processes that promote 
            consensus driven decision making.

       Counties across the United States have engaged in collaborative 
            efforts to address their natural resources challenges. By 
            bringing a broad cross-section of local stakeholders into 
            collaborative processes, counties, industry, recreation 
            groups, conservationists and Federal and state land 
            managers have built consensus on some of the most complex 
            natural resource management challenges. Authorizing limited 
            and reasonable categorical exclusions for projects that 
            improve forest health, and have been developed through 
            consensus-based collaborative processes, will increase the 
            number of acres treated and help to reduce the threat of 
            wildfire.

    <bullet> NEPA must be reformed as well. Streamlining the process 
            for projects with strong local support, collaborative 
            support and support of local land management professionals 
            should be categorically excluded from litigation. We need 
            to allow our professional land management agencies to get 
            back to managing the land rather than managing litigation.

       Congress should require the costs and benefits of a proposed 
            forest project be weighed against the costs and benefits of 
            doing nothing to address wildfire threats, disease and 
            insect infestation, and their impacts on local water 
            supply, air quality and wildlife habitat. The choice not to 
            manage the forest is a management decision that directly 
            impacts public health. Additionally, the USFS should 
            expedite regulatory analyses for timber salvage after major 
            wildfires and other natural disasters. This will provide 
            the USFS with some of the revenue it needs to execute 
            critical and time-sensitive post-fire reforestation work.

    <bullet> In addition to improving forest health and reducing 
            wildfire risk, increased active management will generate 
            more revenue for the Federal Treasury and the critical 
            services provided by counties, and promote job creation and 
            economic growth in counties across the Nation. The growth 
            in stewardship contracting in recent years has shown that a 
            market-driven approach to forest management projects can 
            work to achieve both forest management goals and increased 
            forest production. Counties support and are active partners 
            in stewardship contracting initiatives across the United 
            States. Forest revenue sharing payments support critical 
            county services such as transportation infrastructure and 
            education. America's counties look forward to working with 
            Congress to further strengthen forest revenue sharing 
            between counties and the Federal Government.

       Partnering with private sector commercial foresters to more 
            efficiently provide vegetation management and commercial 
            thinning is a win/win proposition for taxpayers, as well. 
            Not only do commercial projects fulfill vegetation 
            management objectives and priorities, they generate revenue 
            for Federal agencies and local governments, while providing 
            good-paying jobs in predominantly rural parts of the 
            country.

    <bullet> We must address the chronic litigation that hinders our 
            resource/land management professionals and provides 
            financial incentives to litigate projects. The Equal Access 
            to Justice Act (EAJA) must be reformed to ensure litigants 
            are not able to exploit the law, and avoid legal caps on 
            attorney's fees. EAJA's original intention was to 
            compensate small business and individuals who do not have 
            the financial means to challenge Federal actions in court. 
            While individuals with a net worth greater than $2 million 
            and organizations with a net worth above $7 million are not 
            eligible for reimbursement of legal fees, nonprofit 
            organizations are not subject to these limitations. 
            Additionally, some litigants suing to stop land management 
            projects have successfully argued their expertise is 
            specialized, and therefore not subject to the cap. EAJA 
            should be reformed to prevent this abuse of a system 
            designed to protect the vulnerable.
                               conclusion
    Chairman Westerman and Ranking Member McEachin, thank you for the 
invitation to testify. I urge Congress to work together across the 
aisle and craft viable legislation that can be enacted as soon as 
possible to help to slow the threat to Federal lands, neighboring 
private lands, and public health.
    Thank you again for the opportunity to tell you Ravalli County's 
story and to share some of our ideas for improving the health of our 
Federal forest lands.

                                 *****

                              ATTACHMENTS
                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                 

    Mr. Westerman. Thank you, Mr. Chilcott, for your testimony.
    The Chair now recognizes Dr. DellaSala to testify for 5 
minutes.

   STATEMENT OF DOMINICK A. DELLASALA, CHIEF SCIENTIST, GEOS 
                   INSTITUTE, ASHLAND, OREGON

    Dr. DellaSala. Chairman Westerman, Ranking Member McEachin, 
and Subcommittee members, thank you for the honor to testify 
today on the ecological importance of wildfires.
    I am the chief scientist for the nonprofit organization 
Geos Institute in Ashland, Oregon. We work on climate change. I 
also am on the Oregon Global Warming Commission, Task Force on 
Forest Carbon, have served on the Spotted Owl Recovery Team, 
and have written numerous publications on fire-dependent 
ecosystems.
    I want to make two main points in my testimony today:
    One, proposals that call for increased logging and 
decreased environmental review are not science-based, and, in 
many cases, will make the problem you want to solve worse.
    Two, the recent spat of wildfires and insect outbreaks in 
the West is mainly the result of climate change triggering more 
extreme fire weather. No amount of logging or suppression will 
stop weather-driven fire events.
    My testimony is aided by the charts in front of you, 
supported by peer-reviewed scientific publications that 
illustrate the importance of wildfires as an ecosystem benefit. 
And the main drivers of diminished forest resilience are 
climate change and an expansive logging footprint.
    I will close with some top-line recommendations.
    First, what do we know about recent forest fire increases? 
Chart 1 of my testimony shows that fires were burning over 
large landscapes in the early 1900s during extended regional 
drought cycles governed mainly by global climatic forces.
    By the middle of the 20th century, that shifted to a 
cooling trend with reduced acres burning, and it is shifting 
back now as a result of human-caused climate impacts. A change 
in climate means more extreme fire weather--hot, dry winds and 
low fuel moisture that will overtake suppression efforts 
regardless of how much we spend, or whether those areas have 
been thinned or logged.
    Without measures to curtail greenhouse gas emissions, 
suppression costs and impacts to ecosystems will only rise. We 
cannot log our way out of an emerging novel fire climate era, 
as climate, not fuels, will increasingly be the main driver of 
fire behavior.
    Another reason for wildfires that are increasing is 
development, as you heard from the opening remarks. We now have 
a human-caused fire season, which is three times longer than 
the lightning-caused fire season, adding 40,000 new wildfire 
ignitions on average per year across the United States.
    This will only worsen with expansion into the wildland 
urban interface (WUI). There are already 46 million homes. It 
is only going to get worse as homes continue to get built into 
that area.
    What do we know about fire and active management? First, at 
the scale of land-use categories, wilderness and other 
protected areas are not the problem. Chart 2 of my testimony is 
a summary of the most extensive peer-reviewed analyses ever 
done on this subject. It shows how logged areas burn are 
naturally intense in forest fires compared to protected areas, 
thus removing environmental protections to increase logging 
will not lessen fire intensity.
    Second, regarding pre-fire treatments, thinning from below 
of small diameter trees followed by prescribed fire in certain 
forest types can reduce severity. However, there are numerous 
limitations to consider. First, fires occurring during extreme 
fire weather will burn over large landscapes regardless of 
thinning, sometimes racing through hundreds of thousands of 
acres thinned and unthinned as a matter of weather, not fuels.
    There is a low probability of intersecting a thin site when 
a fire is occurring, about 3 to 8 percent chance. Logging of 
large fire resistant trees can increase the rate of spread and 
reduce resiliency, and thinning also requires an extensive and 
impactful road network.
    And third, regarding post-fire treatments, post-disturbance 
logging can intensify all of those impacts by degrading forest 
resilience and reducing the ability of forest to rejuvenate 
after forest fires.
    In closing, rather than policies to increase logging and 
curtail science review of harm from these projects, policies 
are needed to discourage continued growth in the WUI as 
suppression costs will only increase with more development. 
Allocating funds for creating defensible space in already-
developed areas should be a priority.
    Any new development must include defensible space and 
construction using nonflammable materials. That is the only way 
to save homes from fire risks. No amount of logging or 
suppression can stop or slow large fires under extreme fire 
weather. Logging may, in fact, make the amount of unnatural 
disturbances even more so, and effective policies are needed to 
reduce greenhouse gas emissions.
    Finally, public lands are what remains of America's 
dwindling natural inheritance to provide us with clean water, 
habitat for fish and wildlife populations, outdoor recreation, 
and carbon sequestration. Increasing logging will not maintain 
their resilience.
    Thank you.

    [The prepared statement of Dr. DellaSala follows:]
Prepared Statement of Dr. Dominick A. DellaSala, Chief Scientist, Geos 
                       Institute, Ashland, Oregon
    Chairman Westerman, Ranking Member McEachin, and Subcommittee 
members, thank you for the opportunity to discuss wildfires on national 
forests. I am the Chief Scientist of the nonprofit organization, Geos 
Institute in Ashland, Oregon. Geos Institute works with agencies, 
landowners, and decision makers in applying the best science to climate 
change planning and forest management. As a scientist, I have published 
in peer-reviewed journals on fire ecology and climate change, I am on 
the editorial board of several leading journals and encyclopedias, and 
I have been on the faculty of Oregon State University and Southern 
Oregon University. A recent book I co-authored with 28 other scientists 
outlined the ecological importance of mixed-severity fires in 
maintaining fire-resilient ecosystems, including ways to co-exist with 
wildfire (DellaSala and Hanson 2015).
    Wildfires are necessary natural disturbance processes that forests 
need to rejuvenate. Most wildfires in pine and mixed-conifer forests of 
the West burn in mixed fire intensities at the landscape scale that 
produce large and small patches of low to high tree mortality. This 
tapestry of burned patches is associated with extraordinary plant and 
wildlife diversity, including habitat for many big game and bird 
species that thrive in the newly established forests. From an ecosystem 
perspective, natural disturbances like wildfires are not an ecological 
catastrophe. However, given there are now 46 million homes in naturally 
fire-prone areas (Rasker 2015), and no end in sight for new 
development, we must find ways to co-exist with natural disturbance 
processes as they are increasing in places due to climate change.
    In my testimony today, I will discuss how proposals that call for 
increased logging and decreased environmental review in response to 
wildfires and insect outbreaks are not science driven, in many cases 
may make problems worse, and will not stem rising wildfire suppression 
costs. I will also discuss what we know about forest fires and beetle 
outbreaks in relation to climate change, limitations of thinning and 
other forms of logging in relation to wildfire and insect management, 
and I will conclude with recommendations for moving forward based on 
best available science.
            what we know about recent forest fire increases
    Recent Increases in Acres Burned of Forests are Mainly due to a 
Changing Climate--Scientists have known for sometime that fire activity 
tracks regional weather patterns, which in turn, are governed by global 
climatic forces such as the Pacific Decadal Oscillation (PDO--a 
recurring long-lived El Nino-like pattern of Pacific climate 
variability--see Chart 1). For instance, the very active fire seasons 
of the 1910-1930s, occurred during prolonged drought cycles determined 
by the PDO that resulted in much larger areas burning historically than 
today (Powell et al. 1994; Interagency Federal Wildland Fire Policy 
Review Working Group 2001; Egan 2010) (Chart 1). In fact, compared to 
the historic warm PDO phase of the early 1900s, most of the West is 
actually experiencing a fire deficit (Littell et al. 2009, Parks et al. 
2012). However, with warming temperatures, early spring snowmelt, and 
longer fire seasons over the past few decades more acres are burning 
each year (Westerling et al. 2006; Littell et al. 2009) (Chart 1).

    For instance, wildfire season in the West has lengthened from an 
average of 5 to 7 months, and the number of large wildfires (>1,000 
acres) has increased since the 1980s (Dennison et al. 2014) from 140 to 
250 per year (UCS 2017). This is occurring as average annual 
temperature in the West has risen by nearly 2 degrees F since 1970s and 
winter snow pack has declined (UCS 2017). If measures are not taken to 
stem greenhouse gas emissions, wildfire acres are projected to increase 
further in dry areas as annual temperatures are expected to rise 
another 2.5 to 6.5 degrees F by mid century (UCS 2017). Some 
researchers estimate more than half of the increase in acres burned 
over the past several decades is related to climate change (Abatzoglou 
and Williams 2016). This increase is expected to continue with 
additional warming leading to even greater suppression costs if the 
agencies continue to suppress fires across the landscape (Schoennagel 
et al. 2017).

    Increasing Human Development is Lengthening Wildfire Seasons and 
Adding to Fire Ignitions--The direct role of human-access via roads and 
development in the Wildlands Urban Interface (WUI) is increasing 
wildfire activity. Scientists recently evaluated over 1.5 million 
government records of wildfires nationwide from 1992 to 2012 (Balch et 
al. 2015). During that time, human-caused fire ignitions have vastly 
expanded the spatial and seasonal occurrence of fire, accounting for 84 
percent of all wildfire starts and 44 percent of the total area burned 
nationally. We now have the phenomenon of a human-caused fire season, 
which was three times longer than the lightning-caused fire season and 
added an average of 40,000 wildfires per year across the United States 
over this 20-year period of time. Ignitions caused by people--whether 
accidental or arson--have substantial economic costs. This will only 
worsen with continued development of the WUI adding to the 46 million 
homes (Rasker 2015) already in these fire-prone areas.

    Thus, given expansion of homes in the WUI, the best way to limit 
damage to homes is to reduce fire risks by working from the home-
outward instead of the wildlands-inward (Syphard et al. 2013). For 
instance, if a fire-brand travels miles ahead and lands on a flammable 
roof that home is very likely to burn compared to a home that has a 
fire-resistant roof and cleared vegetation within a narrow defensible 
space of 100-200 feet immediately surrounding the home (Cohen 2000). 
Logging outside of this narrow zone does not change home ignition 
factors.
             what we know about fire and forest management
    Wilderness and Other Protected Areas are not Especially Prone to 
Forest Fires--Proposals to remove environmental protections to increase 
logging for wildfire concerns based on the assumption that unmanaged--
or protected areas--burn more intensely are misplaced. For instance, 
scientists (Bradley et al. 2016 of which I was a co-author) recently 
examined the intensity of 1,500 forest fires affecting over 23 million 
acres during the past four decades in 11 western states. We tested the 
common perception that forest fires burn hottest (most intensely) in 
wilderness and national parks while burning cooler (less intensely) or 
not at all in areas where logging had occurred. What we found was the 
opposite--fires burned most intense in previously logged areas, while 
they burned in natural fire mosaic patterns in wilderness, parks, and 
roadless areas, thereby, maintaining resilient forests (see Chart 2). 
Consequently, there is no reason for reducing environmental 
protections.

    State Lands are not at Lower Wildfire Risks Compared to Federal 
Lands--There is much discussion about whether state lands are being 
managed in a way that reduces fire occurrence and intensity. However, 
in a recent report of wildfire risk (that included acres likely to 
burn), scientists (Zimmerman and Livesay 2017) used the West Wide 
Wildfire Risk Assessment model, an important assessment tool of the 
Council of Western State Foresters and Western Forestry Leadership 
Coalition. They evaluated risk for western states based on historical 
fire data, topography, vegetation, tree cover, climate, and other 
factors. According to the Center for Western Priorities analysis, state 
(22 percent) and Federal (23 percent) lands have approximately 
equivalent levels of fire risks in the West, and for some states, risks 
were higher than Federal lands. Notably, allegations of higher fire 
risk based solely on the number of Federal acres burned in a fire 
season are misleading as there are over seven times as many Federal 
lands (362 million acres) in 11 western states as compared to state-
owned lands (49 million acres) (Zimmerman and Livesay 2017).

    Thinning is Ineffective in Extreme Fire Weather--Thinning/logging 
is most often proposed to reduce fire risk and lower fire intensity. 
Thinning-from-below of small diameter trees followed by prescribed fire 
in certain forest types can reduce fire severity (Brown et al. 2004, 
Kalies and Kent 2016) but only when there is not extreme fire weather 
(Moritz et al. 2014, Schoennagel et al. 2017). Fires occurring during 
extreme fire-weather (high winds, high temperatures, low humidity, low 
fuel moisture) will burn over large landscapes, regardless of thinning, 
and in some cases can burn hundreds or thousands of acres in just a few 
days (Stephens et al. 2015, Schoennagel et al. 2017). Fires driven by 
fire weather are unstoppable and are unsafe for firefighters to attempt 
putting them out, and, as discussed, are more likely under a changing 
climate.

    Further, there is a very low probability of a thinned site actually 
encountering a fire during the narrow window when tree density is 
lowest. For example, the probability of a fire hitting an area that has 
been thinned is about 3-8 percent on average, and thinning would need 
to be repeated every 10-15 years (depending on site productivity) to 
keep fuels at a minimum (Rhodes and Baker 2008).

    Thinning too much of the overstory trees in a stand, especially 
removal of large fire-resistant trees, can increase the rate of fire 
spread by opening tree canopies and letting in more wind, can damage 
soils, introduce invasive species that increase flammable understory 
fuels, and impact wildlife habitat (Brown et al. 2004). Thinning also 
requires an extensive and expensive roads network that can degrade 
water quality by altering hydrological functions, including chronic 
sediment loads.

    Post-Disturbance Salvage Logging Reduces Forest Resilience and can 
Raise Fire Hazards--Commonly practiced after natural disturbances like 
fires or insect outbreaks, post-disturbance logging hinders forest 
resilience by compacting soils, killing natural regeneration of conifer 
seedlings and shrubs associated with forest renewal, increasing fine 
fuels from slash left on the ground that aids the spread of fire, 
removing the most fire-resistant large live and dead trees, and 
degrading fish and wildlife habitat. Further roads that increase 
sediment flow to streams triggering widespread water quality problems 
(Lindenmayer et al. 2008).
     what we know about beetle-killed forests and forest management
    Beetle Killed Forests are Not More Susceptible to Forest Fires--
Forests in the West are being affected by the largest outbreaks of bark 
beetles in decades, which has caused concern about forest resilience 
and wildfire risk and led to proposals for widespread tree removals. 
Such proposals stem in part from the rationale that bark beetle 
outbreaks increase wildfire risks due to dead trees and that logging in 
beetle-affected forests would therefore lower such risks. However, 
beetle-killed forests are not more susceptible to forest fires (Bond et 
al. 2009, Hart et al. 2015, Meigs et al. 2016). This is mainly because 
when conifers die due to drought or native bark beetles, the 
combustible oils in the needles quickly begin to dissipate, needles and 
small twigs begin to fall to the ground. Without the fine fuels that 
facilitate fire spread, potential crown fires are actually lowered in 
forests with beetle mortality (Donato et al. 2013). The beetle-killed 
standing dead trees (snags) are the least flammable part of the forest 
and act more like a large log in a campfire, rather than kindling which 
is what causes fire spread.

    In fact, studies of beetle-killed forests in the West found that 
when fires occurred during or immediately after the pulse of snag 
recruitment from beetle kill, fire severity consistently declined in 
the stands with high snag densities in the following decades (Meigs et 
al. 2016). In pine and mixed-conifer forests of the San Bernardino 
National Forest (CA), fires occurred immediately after a large pulse of 
snag recruitment from drought and beetles. However, scientists (Bond et 
al. 2009) found ``no evidence that pre-fire tree mortality influenced 
fire severity.'' In studies of beetles and wildfires across the western 
United States, scientists (Hart et al. 2015) stated ``contrary to the 
expectation of increased wildfire activity in recently infested red-
stage stands, we found no difference between observed area and expected 
area burned in red-stage or subsequent gray-stage stands during 3 peak 
years of wildfire activity, which account for 46 percent of area burned 
during the 2002-2013 period.'' And finally, in a comprehensive review 
of fire-beetle relations in mixed-conifer and ponderosa pine forests of 
the Pacific Northwest, scientists (Meigs et al. 2016) found: ``in 
contrast to common assumptions of positive feedbacks, we find that 
insects generally reduce the severity of subsequent wildfires. Specific 
effects vary with insect type and timing, but insects decrease the 
abundance of live vegetation susceptible to wildfire at multiple time 
lags. By dampening subsequent burn severity, native insects could 
buffer rather than exacerbate fire regime changes expected due to land 
use and climate change.''

    Most importantly, climate change is allowing more insects to 
survive the winter, triggering the rash of recent outbreaks (Meigs et 
al. 2016).

    Thinning Cannot Limit or Contain Beetle Outbreaks--Once beetle 
populations reach widespread epidemic levels, thinning treatments aimed 
at stopping them do not reduce outbreak susceptibility as beetles over-
run natural forest defenses with or without thinning (Black et al. 
2013).
                  closing remarks and recommendations
    In sum:

    <bullet> Recent increases in wildfires and insect outbreaks are a 
            result of a changing climate coupled with human-activities 
            including expansion of homes and roads into the WUI that 
            will only continue to drive up fire suppression costs.

    <bullet> Policies should be examined that discourage continued 
            growth in the WUI; any new development must include 
            defensible space and construction from non-flammable 
            materials.

    <bullet> The most effective way to protect homes is to create 
            defensible space in the immediate 100 feet of a structure 
            and use of non-flammable materials. Wildland fire policy 
            should fund defensible space, not more logging and thinning 
            miles away from communities.

    <bullet> No amount of logging can stop insect outbreaks or large 
            fires under extreme fire weather. Logging may, in fact, 
            increase the amount of unnatural disturbances by 
            homogenizing landscapes with more even aged trees, residual 
            slash left on the ground, and compounding cumulative 
            impacts to ecosystems.

    <bullet> Thinning of small trees in certain forest types, 
            maintaining canopy closure and in combination with 
            prescribed fire can reduce fire intensity but treatment 
            efficacy is limited in extreme fire weather, and by the 
            small chance that a thinned site will encounter a fire 
            during a very narrow window when fuels are lowest.

                               Citations

Balch, J.K., B.A. Bradley, J.T. Abatzoglou, et al. 2016. Human-started 
wildfires expand the fire niche across the United States. PNAS 
114:2946-2951.

Black, S.H., D. Kulakowski, B.R. Noon, and D.A. DellaSala. 2013. Do 
bark beetle outbreaks increase wildfire risks in the Central U.S. Rocky 
Mountains: Implications from Recent Research. Natural Areas Journal 
33:59-65.

Bond, M.L., D.E. Lee, C.M. Bradley, and C.T. Hanson. 2009. Influence of 
pre-fire tree mortality on fire severity in conifer forests of the San 
Bernardino Mountains, California. The Open Forest Science Journal 2:41-
47.

Bradley, C.M., C.T. Hanson, and D.A. DellaSala. 2016. Does increased 
forest protection correspond to higher fire severity in frequent-fire 
forests of the western United States? Ecosphere 7:1-13.

Brown, R.T., J.K. Agee, and J.F. Franklin. 2004. Forest restoration and 
fire: principles in the context of place. Conservation Biology 18:903-
912.

Cohen, J.D. 2000. Preventing disaster: home ignitability in the 
wildland-urban interface. Journal of Forestry 98:15-21.

DellaSala, D.A. and C.T. Hanson. 2015. The ecological importance of 
mixed-severity fires: nature's phoenix. Elsevier: Boston, MA.

Dennison, P., S. Brewer, J. Arnold, and M. Moritz. 2014. Large wildfire 
trends in the western United States, 1984-2011. Geophysics Research 
Letters 41:2928-2933.

Donato, D.C., B.J. Harvey, W.H. Romme, et al. 2013. Bark beetle effects 
on fuel profiles across a range of stand structures in Douglas-fir 
forests of Greater Yellowstone. Ecological Applications 23:3-20.

Egan, T. 2010. The Big burn. Huffman Mifflin Harcourt: Boston.

Hart, S.J., T.T. Veblen, N. Mietkiewicz, and D. Kulakowski. 2015. 
Negative feedbacks on bark beetle outbreaks: widespread and severe 
spruce beetle infestation restricts subsequent infestation. PlosOne: 
DOI:10.1371/journal.pone.0127975.

Kalies, E.I. and L.L. Yocom Kent. 2016. Tamm Review: Are fuel 
treatments effective at achieving ecological and social objectives? A 
systematic review. Forest Ecology and Management 375-84-95.

Lindenmayer, D.B., P.J. Burton, and J.F. Franklin. 2008. Salvage 
logging and its ecological consequences. Island Press: Washington, DC.

Littell, J.S., D. McKenzie, D.L. Peterson, and A.L. Westerling. 2009. 
Climate and wildfire area burned in western U.S. ecoprovinces, 1916-
2003. Ecological Applications 19:1003-1021.

Meigs, G.W., H.S.J. Zald, J. L. Campbell, et al. 2016. Do insect 
outbreaks reduce the severity of subsequent forest fires? Environmental 
Research Letters 11 doi:10.1088/1748-9326/11/4/045008.

Moritz, M.A., E. Batllori, R.A. Bradstock, et al. 2014. Learning to 
coexist with wildfire. Nature 515:58-66.

Parks, S.A., C. Miller, M.A. Parisien, et al. 2012. Wildland fire 
deficit and surplus in the western United States, 1984-2012.

Powell, D.S., J.L. Faulkner, D.R. Darr, et al. Forest resources of the 
United States, 1992. USDA Forest Service General Technical Report RM-
234 (revised).

Rasker, R. 2015. Resolving the increasing risk from wildfires in the 
American West. www.thesolutionsjournal.org; March-April 2015 p. 55-62.

Rhodes, J.J. and W.L. Baker. 2008. Fire probability, fuel treatment 
effectiveness and ecological tradeoffs in western U.S. public forests. 
The Open Forest Science Journal 1:1-7.

Schoennagel, T., J.K. Balch, H. Brenkert-Smith, et al. 2017. Adapt to 
more wildfire in western North American forests as climate changes. 
PNAS 114:4582-4590.

Stephens, S.L., M. P. North, and B.M. Collins. 2015. Large wildfires in 
forests: What can be done? ActionBioscience April 15.

Syphard, A.D., A. Bar Massada, V. Butsic, and J. E. Keeley. 2013. Land 
use planning and wildfire: development policies influence future 
probability of housing loss. PLoS ONE 8(8):e71708.

Union of Concerned Scientists (UCS). 2017. Western wildfires and 
climate change. http://www.ucsusa.org/global_warming/
science_and_impacts/impacts/infographic-wildfires-climate-
change.html#.WcBXE5OGNTb.

Westerling, A.L., H.G. Hidalgo, D.R. Cayan, and T.W. Swetnam. 2006. 
Warming and earlier spring increase western U.S. forest wildfire 
activity. Science 313:940-943.

Zimmerman, G. and L. Livesay. 2017. Fire lines: comparing wildfire risk 
on state and U.S. public lands. Center for Western Priorities. http://
westernpriorities.org/2017/09/20/fire-lines-comparing-wildfire-risk-on-
state-and-u-s-public-lands/.

                                 *****

                              ATTACHMENTS

 Chart 1. Fires track regional climatic variations governed by global 
  processes such as the Pacific Decadal Oscillation (PDO). The PDO is 
     recurring pattern of ocean-atmosphere (El Nino-like) climate 
interactions centered over the mid-latitude Pacific basin. When the PDO 
is warm, fire activity is high and vice-versa (modified from Littell et 
                               al. 2009).
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

  Chart 2. Burn severity (cool to hot fires) classes arranged by 
  land-use categories from maximum protection (parks, wilderness) to 
minimal (private lands). Fire severity was assessed from the Monitoring 
 Trends in Burn Severity project (http://www.mtbs.gov) managed by USDA 
and USDI. Fire severity data in acres burned and severity classes were 
available from 1984 to 2014 and analyzed for 1,500 fires affecting 24 
 million acres burning in mixed-conifer and pine forests of 11 western 
states using GIS and robust statistical analyses (Bradley et al. 2016). 
    The chart reflects average burn severities for land categories.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chart 3(A). Google Earth image of the Douglas-fire complex, 
  southwest Oregon showing the burn perimeter in red. This 2014 fire 
  burned mostly on private lands and in high fire intensities when it 
  encountered densely stocked tree plantations and logging slash that 
  acted as kindling. A similar fire nearby in 2012, Oregon Gulch fire 
 (not shown), blew up when it encountered slash piles on private lands 
 the height of three story buildings. The Google image is illustrative 
 of the general pattern of uncharacteristic fire intensity observed in 
``actively managed'' forests by Bradley et al. 2016. The area was also 
  extensively post-fire salvage logged leading to chronic impacts to 
 forests and streams that accumulate in space and time and predispose 
 fire-rejuvenating forests to the next uncharacteristic high intensity 
  burn (i.e., a perpetual intense fire-logging-intense fire feedback 
                                loop)..

3(A)
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chart 3(B). The so-called ``checkerboard'' of private and Bureau of 
   Land Management (BLM) lands, southwest Oregon, showing extensive 
  fragmentation by roads and clearcuts. Flammable tree plantations on 
private lands have replaced most of the fire-resistant/resilient older 
  forests that once dominated the Pacific Northwest. Remaining older 
    forests are mainly on public lands and provide myriad ecosystem 
 benefits in the form of outdoor recreation, carbon sequestration and 
   storage, clean water, aquatic strongholds for salmon, and unique 
 habitat for species that are reduced in intensively/actively managed 
                                 areas.

3(B)
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Both landscapes have been extensively damaged by decades of 
clearcutting and road building. High road densities fragment wildlife 
habitat and cause chronic water quality and invasive species problems. 
Increasing logging on Federal lands, where the last intact forests and 
watersheds remain, will make forests and aquatic systems less resilient 
to natural disturbances especially when coupled with the emergence of a 
new fire-climate era and an increase in human-caused wildfire 
ignitions. Unprecedented cumulative impacts from logging and climate 
change will likely trigger the onset of a wave of species extinctions 
in terrestrial and aquatic systems.

  Chart 4. Post-fire logging within a late-successional reserve (LSR) 
   managed for spotted owls and other old forest species (under the 
 Northwest Forest Plan) in the Biscuit fire area 2002 (upper left) vs. 
the same LSR 10 years later (upper right). Upper right panel shows lack 
  of conifer establishment mainly when loggers dragged logs up steep 
slopes killing most of the naturally regenerating seedlings (Donato et 
  al. 2006). Bottom photo just upslope of the logged LSR was from an 
 unlogged botanical area with abundant ``biological legacies'' (large 
  snags) that protected soils, shaded conifer seedlings from intense 
 sunlight, and provided soil nutrients and moisture for the developing 
forest. Notice the difference in forest establishment. A detailed study 
    was conducted in the Biscuit burn area (Donato et al. 2006) and 
 documented statistically significant losses of conifer establishment 
due to logging and higher fuel accumulations in post-fire logged plots 
from slash. Thus, these photos are illustrative of the general negative 
           impact of post-fire logging on forest resilience.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Citation: Donato, D.C. et al. 2006. Post-wildfire logging 
hinders regeneration and increases fire risks. Science Brevia 5 January 
2006/Page 1/10.1126/science.1122855.

 Chart 5. Wildfires in western pine and mixed-conifer forests produce 
  mixed fire effects on the vegetation (known as fire severity). This 
  pattern of large and small patches consists of unburned/low (U/L), 
 moderate (M), and high (H) burn severity patches (``pyrodiversity'') 
 associated with extraordinary levels of plant and wildlife richness, 
 including habitat for rare plants, songbirds, woodpeckers, big game, 
  small mammals, and spotted owls. Alpha (number of species at stand 
level), beta (number of species summed across burn patches), and gamma 
 diversity (number of species at regional scales) are ways to measure 
 diversity at different spatial scales. Burned areas are rich in these 
       diversity metrics and are not ecological ``catastrophes.''

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

  Chart 6. A tale of two connected forests. The old-growth forest 
    (left), rich in plant and wildlife diversity, eventually burned 
 (right). The burned forest is known as ``complex early seral forest'' 
with the dead standing trees (snags) acting as ``biological legacies'' 
that connect the various stages of forest succession through time. Soon 
after the fire in the old growth, colonizing plants and wildlife occupy 
the site and richness of species accumulates, quickly rivaling that of 
       an old-growth forest. A forest fire is not an ecological 
``catastrophe'' but is a resetting of nature's successional clock that 
   forests have been resilient and uniquely adapted to for millennia 
 (DellaSala and Hanson 2015). Logging in these forests degrades forest 
                   resilence and is not restoration.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                                                 

  Questions Submitted for the Record by Rep. McEachin to Dominick A. 
               DellaSala, Chief Scientist, Geos Institute
    Question 1. Please elaborate on Southwest forest ecosystems with 
regard to fire and active management.

    Answer. In low-mid elevation ponderosa pine and mixed-conifer 
forests of the Southwest, natural historical fire regimes were 
typically dominated by low/moderate-severity fire, but included the 
occasional high-severity fire patches as well. Because of this 
heterogeneity in fire effects, forests historically were quite variable 
in tree density, ranging from open to dense. This characterization is 
based on fire-regime reconstructions using historical field data (Odion 
et al. 2014, Williams and Baker 2014), fire-scar records from tree 
rings (Roos and Swetnam 2011), and paleoecological research using 
charcoal deposits (Jenkins et al. 2011). During warm, dry periods, 
especially following wet years, ``large crown fires'' occurred 
periodically in these forests historically (Roos and Swetnam 2011). 
Although there is currently considerably less fire in southwestern 
forests than historically, similar to other western U.S. conifer 
forests (Roos and Swetnam 2011, Odion et al. 2014), annual area burned 
has increased from the 1970s through 1980s. Importantly, high-severity 
fire in the Southwest, as in most other western conifer forests (Roos 
and Swetnam 2011, Odion et al. 2014), has not increased in total acres 
or percentage of fire acres from 1984 to present, the period during 
which we have good satellite data (Baker 2015a, Keyser and Westerling 
2017).
    Though some southwestern forests have high densities of very small, 
the largest recent fires in southwestern forests, such as Horseshoe2 
fire of 2011 (226,000 acres), Wallow fire of 2011 (564,000 acres), and 
Whitewater-Baldy fire of 2012 (307,000) have nevertheless been 
comprised mostly of low/moderate-severity fire effects (www.mtbs.gov). 
In the high-severity fire patches, post-fire forest regeneration has 
occurred naturally. Conifer establishment occurs in more dense 
concentrations closest to low/moderate-severity areas, and in more open 
patterns in the interior areas of larger high-severity patches (Haire 
and McGarigal 2010). In general, these mixed-severity fires in this and 
other fire-dependent forests support high levels of biodiversity 
(DellaSala and Hanson 2015). Mexican spotted owls, for example, 
preferentially hunt in such fire areas, due to increased small mammal 
prey abundance.
    Contrary to Representative Gosar's false assertion during the 
hearing about the lack of pine regeneration in high intensity burns in 
the Southwest, a new study was covered on October 5 in the Arizona 
Daily Sun that shows this is clearly not the case for these forests: 
http://azdailysun.com/news/local/study-finds-surprising-ponderosa-
regrowth-after-severe-wildfires/article_7569e37f-d7ac-577f-b301-
c9b640d2 bd60.html#tncms-source=home-top-story-1.
    Finally, active management is defined and discussed in detail in 
the following sections.

    Question 2. Please further explain the graph about warm and cool 
phases to address the claim that the lower levels of fire correspond 
with periods of most active management.

    Answer. Scientists have known for sometime that wildfire activity 
tracks regional droughts and high temperatures (Whitlock et al. 2015) 
influenced mainly by climatic forces such as the Pacific Decadal 
Oscillation (PDO), the El Nino-like pattern of alternating warm and 
cool phases in the Pacific region.
    Congressman Westerman contended that the period when fewer acres 
burned in the cool mid-20th century PDO (Chart 1) was due to higher 
levels of logging or active management. If increased logging was the 
driver of fewer acres burned, then that pattern would have continued 
through the height of logging in the 1970s-1980s (Chart 2). Indeed that 
is the premise of the Westerman bill--that more logging will reduce 
fire risk. However, as active management ramped up in the 1970s through 
the early 1980s, fire activity increased, not decreased. And this trend 
of increasing fire continued despite mechanized fire suppression. The 
period of time that Congressman Westerman referred to included the near 
wholesale liquidation of mature and old-growth forests, decimation of 
steams and watersheds, sediment loading of streams and loss of native 
fish runs. In the Pacific Northwest, 2 square-miles per week were 
being clearcut on national forests during this time (DellaSala et al. 
2015). Logging also increased on private lands (Law and Waring 2015) 
yet acres burned continued to rise.

Chart 1. Area in western forests from 1900s through 2000s (J. Littell, 
                        personal communication).
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

Chart 2. Timber sold and harvested over roughly the same period in 
  Chart 1. Note an unprecedented increase in logging was taking place 
     during the cool PDO (1950s-1980s) when fire activity was low.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    It is much more likely that regional climate--governed by top-
down global climate forces--is mainly responsible for contemporary 
increases in acres burning (Little et al. 2009, Schoennagel et al. 
2017). Additionally, recent increases in human-caused fires has made 
the length of fire season three times longer than the lightning caused 
season, contributing to an average of 40,000 fire starts each year as 
more and more homes are built in the wildland urban interface (Balch et 
al. 2017).

    Question 3. What is your definition of and approach to active 
management and its role in wildfire management? What is your definition 
of ``catastrophic'' and how does it relate to fire management?

    Answer.

    Active management--Witnesses or congressional members never defined 
this term at the hearing; however, H.R. 2936 would expand hazardous 
fuels (thinning) treatments and Categorical Exclusions for post-fire 
logging that have nothing to do with forest resilience as follows.

    <bullet> Post-disturbance clearcut (``salvage'') logging--
            Clearcutting of large swaths of live and dead trees after a 
            natural fire or other natural disturbance. Post-fire 
            logging is often followed by herbicides to reduce 
            competition from naturally regenerating shrubs and other 
            plants, and to allow for subsequent planting of nursery 
            stock trees. Logging and replanting, rather than letting 
            the forest naturally regenerate, can create a dangerous 
            feedback loop where fires burn initially and naturally in 
            fire-resilient native forests that are then logged and 
            planted in dense rows only to burn hot and to be logged and 
            planted again, and so on (Odion et al. 2004, Thompson et 
            al. 2007). Logging after a disturbance also removes the 
            most ecologically valuable components of a forest--dead 
            still standing trees (``snags'') and fallen, downed logs. 
            These legacy trees anchor soils, provide shade for 
            developing seedlings, ``nurse logs'' for new plant growth 
            and soil moisture retention, habitat for aquatic species 
            when snags fall in streams. Importantly these legacies 
            store vast amounts of carbon, decay and some release of 
            carbon occurs slowly from decades to centuries. They also 
            provide habitat for scores of insect eating bats, birds, 
            and other small mammals that help keep native insect 
            populations in check.
    <bullet> Forest thinning--Partial removal of trees used for a 
            variety of silvicultural purposes, including reducing 
            competition among tree stems, increasing tree vigor, and 
            accelerating tree growth for so-called ``forest health'' 
            (typically undefined or based on timber harvest 
            definitions) purposes, including reducing ``hazardous 
            fuels.'' Thinning small diameter trees from below while 
            maintaining appropriate canopy cover can in certain 
            circumstances change fire behavior. However, there are some 
            significant drawbacks to relying on landscape-scale 
            thinning to address increased fire activity in a warming 
            period. These are: (1) there is a very low probability (2-8 
            percent) that a thinned site will encounter a fire during 
            the narrow period of 10-15 years of reduced ``fuels;'' (2) 
            excessive thinning can increase wind speeds in a stand that 
            consequently increases rates of fire spread; (3) opening up 
            a stand to greater light penetration results in rapid 
            understory growth that in turn contributes to future fire 
            spread; (4) thinning needs to be followed by prescribed 
            fire; and (5) thinning can damage wildlife habitat because 
            it often removes medium and large diameter trees. When 
            extreme fire-weather (high temperatures, low fuel moisture, 
            low humidity, high winds) encounters a thinned stand there 
            can be little to no reduced fire intensity (Schoennagel et 
            al. 2017). In a warming climate, thinning will become 
            increasingly less effective.

    <bullet> Road building--Thinning and post disturbance logging 
            require an expansive and expensive to maintain road system. 
            Roads are associated with water quality degradation, 
            aquatic species declines (e.g., salmon), spread of invasive 
            weeds, human-caused fire ignitions, and loss of wildlife 
            habitat (Ibisch et al. 2017).

    Excluding the above ``active management'' provisions that are 
incompatible with forest resilience, there are plenty of approaches 
that would be supportive of resilience, including:

    <bullet> Removal of human-caused stressors to ecosystems that 
            compound in space and time (e.g., livestock grazing, Off-
            Highway Vehicles).

    <bullet> Removing damaging roads and re-contouring the road prism 
            to natural features to reduce sediments to streams and to 
            improve hydrological function.

    <bullet> Reintroduction and management of viable populations of 
            endangered species and their habitats.

    <bullet> Removal of invasive species.

    <bullet> Managing wildfires for ecosystem benefits with prescribed 
            fire in appropriate forest types.

    <bullet> Thinning and girdling of small trees in young plantations 
            created by prior clearcuts to accelerate development of 
            older forest structures.

    <bullet> Replacing ineffective culverts (especially important in 
            areas where climate change will trigger more floods).

    <bullet> Restoring floodplains so they can naturally store more 
            water (e.g., by reintroducing beavers) and attenuate 
            floods.

    Catastrophe--A natural disturbance that wreaks havoc on human 
communities is a catastrophe that needs to be avoided. However, the 
term ``catastrophe,'' as repeated by witnesses and congressional 
members throughout the hearing has no scientific basis; it is value-
laden and inconsistent with how ecosystems function.
    Wildfires do not ``destroy'' fire-dependent ecosystems, rather, 
they are natural disturbance agents that have been shaping the ecology 
of forest ecosystems for millennia. Many forest ecosystems are uniquely 
adapted to reoccurring fires that rejuvenate them. For instance, 
certain lodgepole pine populations in the Rockies require intense heat 
to open their pinecones (serotinous) and release the seeds. The real 
ecological calamity is the wanton destruction of mature and old-growth 
forest ecosystems (2 percent remains in the lower 48 states with most 
concentrated in the Pacific Northwest where >80 percent were destroyed 
by logging--Strittholt et al. 2006), and logging of irreplaceable post-
fire habitats that would expand under H.R. 2936. Those catastrophes are 
human-caused and have triggered widespread declines of hundreds of 
plants and wildlife, including the culturally iconic Pacific salmon 
(FEMAT 1993). Thus, the term catastrophe should be reserved for only 
the affects of natural disturbances on people, not ecosystems.
    Question 4. Please expand on your statement that logging, not fire, 
is the real threat to spotted owls.

    Answer. In 2006-2008, I served on the U.S. Fish & Wildlife Service 
recovery team for the threatened northern spotted owl. I also have 
conducted independent field research and published on the habitat needs 
of the owl in scientific journals (e.g., see DellaSala et al. 2013). 
During the oversight hearing, I responded to erroneous claims made by 
Mr. Fite that forest fires--not logging--were the main threats to owls 
and that to save the owl we needed to reduce fires by ``active 
management'' (i.e., more logging). I was surprised to hear Mr. Fite was 
concerned about the owl given that the timber industry has been 
responsible for liquidating most of the old-growth forests within the 
owls' range. Rather than acknowledge that logging has been the major 
reason for habitat loss, Mr. Fite blames wildfire. To begin, the owl 
would not have been historically present in dry forest regions of the 
Pacific Northwest unless it could co-exist with forest fires that 
periodically maintained owl habitat (see Baker 2015b).

    When I was on the northern spotted owl recovery team, there was 
considerable debate among recovery team members about whether wildfire 
was a significant threat to owls. In fact, the U.S. Fish & Wildlife 
Service was criticized by scientific societies such as The Wildlife 
Society and Society for Conservation Biology in peer review for 
overstating fire risks to owls. Most recent studies show that spotted 
owls in the dry forest portion of their geographic range (e.g., 
southwest Oregon) are quite resilient to forest fires, but only if owl 
territories are not logged post-fire (e.g., Clark et al. 2013). 
Wildfires of mixed intensities produce what is commonly referred to as 
the ``bedroom'' and ``kitchen'' effect with the bedroom being low-
moderate severity patches where most large trees (nest sites) survive 
and the kitchen being the high severity burn patches (most trees 
killed) that provide owl-prey habitat for small rodents and woodrats 
that readily populate burn patches after fire (e.g., Bond et al. 2013).

    Mr. Fite also mentioned a recent study in the King fire area of 
California where spotted owls abandoned territories post-fire. What he 
failed to include is that owl populations in that area were already 
declining from extensive pre-fire logging. In fact, most of the owl 
territories that were erroneously claimed by the Forest Service to have 
been rendered ``extinct'' by the King fire had actually lost occupancy 
prior to the fire's occurrence due to extensive logging (Hanson et al. 
in peer review). Owls also abandoned nest sites following substantial 
post-fire logging in their home ranges. Mr. Fite also failed to mention 
another published study in the Sierra that examined spotted owl 
occupancy after the Rim fire of 2013 on the Stanislaus National Forest. 
This study found that occupancy of spotted owls after the Rim fire (but 
before post-fire logging) was the highest of any location studied in 
the Sierra (Lee and Bond 2015). Thus, large fires can potentially 
benefit spotted owls, not harm them, so long as post-fire logging does 
not occur in the owl habitat. Fire is not the main problem for spotted 
owls (Baker 2015b), but rather post-fire logging causes territory 
abandonment.

    Question 5. Please elaborate on the emissions associated with fire 
and forest fire and how carbon sequestration operates after a forest 
fire.

    Answer. For the past 2 years, I have served on the Oregon Global 
Warming Commission's Task Force on Forest Carbon that reports to 
Governor Kate Brown. The Task Force is about to release a new report--
based on the latest emissions data--showing that emissions from 
wildfires typically represent only 1-3 percent of the state's annual 
greenhouse gas releases.

    Contrary to assertions at the hearing, the vegetation killed by 
forest fires does not completely volatilize or release most of its 
carbon to the atmosphere. Most of the carbon remains on-site and is 
stored in the stem wood, branches, and logs unconsumed even by high-
severity wildfires (Meigs et al. 2009, Mitchell 2015). A relatively 
small percent, from 5 to 35 percent (averaging 10 percent) combusts in 
mixed severity fires typical of the northwestern United States. Most of 
the combusted material is from burning of the duff layer, forest 
litter, small branches and small vegetation. About half of the burned 
carbon is stored in soils for 90 years; the other half persists for 
over a thousand years (millennia) as charcoal. Importantly, large dead 
trees are not ``consumed'' by fire, rather, carbon remains stored in 
tree boles for decades to centuries at the same time new plant growth 
is rapidly sequestering carbon (Meigs et al. 2009, Law and Waring 
2015). The claim made at the hearing, that the Rim fire resulted in 
emissions of over 12 million tons of CO<INF>2</INF> is wildly 
exaggerated. It was presumably based on an unsubstantiated assumption 
that 85 percent of the above-ground biomass is consumed in high-
severity fires (see Garcia et al. 2017). However, actual studies of 
forest fires, based on field data, show considerably less consumption 
(10 percent average). Additionally, even severely burned forests 
rapidly begin sequestering carbon during new forest growth (Chart 3).

 Chart 3. Natural post-fire regeneration in the Rim fire area 4 years 
  post-fire. Note: extensive plant growth that corresponds to carbon 
                      uptake (photos: C. Hanson).

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    .epsIn contrast, tree removal via forest thinning and post-fire 
logging reduces carbon storage (e.g., Chart 4). Further, because 
managers end up thinning much more area than actually would have burned 
during the period of treatment efficacy, there is much more carbon 
emitted from thinning and wood processing compared to what would have 
been emitted during a forest fire (Meigs et al 2009). In contrast, 
restrictions on Federal lands logging in the Pacific Northwest, as a 
result of the Northwest Forest Plan protections, switched public 
forests from a source of emissions in the 1980s (the height of Federal 
timber harvest) to a forest carbon sink that is now storing vast 
amounts of the region's global warming emissions (Krankina et al. 
2012).

Chart 4. A human-caused catastrophic disturbance, post-fire logging, on 
Stanislaus National Forest in the Rim fire area, Sierra Nevada. Nearly 
 all of the natural post-fire conifer regeneration was killed by post-
  fire logging. This activity would be expanded under H.R. 2936 with 
               minimal environmental review (C. Hanson).

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    .epsThus, if this Subcommittee is truly concerned about global 
warming emissions, then storing more carbon in forest ecosystems by 
increasing, not decreasing, protection of older carbon-dense forests 
and post-fire forests would more than make up for the small 
contribution of wildfire emissions (Krankina et al. 2012, Law and 
Waring 2015).

    Question 6. Please discuss carbon storage and sequestration when it 
comes to forests, forest management and forest fires.

    Answer. Carbon sequestration in relation to forest fires was 
discussed in #5 above.

    Accurate assessment of whether a particular forest practice yields 
carbon benefits requires managers to conduct a full life-cycle analysis 
of carbon losses and gains. While this is beyond the scope of this 
question, I will elaborate in general on the movement of carbon into 
and out of a forest due to natural and human-caused disturbances. I 
will also provide an example of carbon flux from logging vs. protection 
of the Tongass National Forest in southeast Alaska where I have 
conducted such analyses. In sum, the simple answer can be boiled down 
to what Dr. Beverly Law (carbon scientist at Oregon State University) 
refers to as ``slow-in'' and ``fast-out.''

    In general, forests are a critical part of the global atmospheric 
carbon cycle that overtime contribute to climate stabilization by 
absorbing (sequestering) and storing vast amounts of carbon dioxide 
(CO<INF>2</INF>) in trees (live and dead), soils, and understory 
foliage (i.e. ``slow-in''). As a forest matures, it continues to 
accumulate and store carbon, functioning as a net carbon ``sink'' for 
centuries as long as there are no major disturbances. Ongoing carbon 
accumulation and storage have been measured in forests >800 years old 
(Luyssaert et al. 2008).

    When an old-growth forest is cut down, up to two-thirds of its 
stored carbon (after accounting for carbon stored in wood products) is 
released as CO<INF>2</INF> switching it from a sink to a net ``source'' 
or ``emitter'' of CO<INF>2</INF> (i.e., ``fast-out''). Carbon is 
quickly released via decomposition of logging slash, fossil-fuel 
emissions from transport and processing of wood products, and decay of 
short-lived wood products in landfills (Harmon et al. 1990). Planting 
or growing young trees does not make up for these losses. Indeed, after 
a forest is clearcut, it remains a net CO<INF>2</INF> emitter for its 
first 13 years and even if not cut down again will not reach the levels 
of carbon stored in an old forest for centuries (Turner et al. 2004) 
(``fast out'').

    Globally, deforestation (8-15 percent of emissions) and forest 
degradation (6-13 percent of emissions) contribute significantly to the 
world's annual greenhouse gas pollutants,\1\ more than the entire 
global transportation network, which is why many countries are seeking 
ways to reduce emissions by protecting their forest sinks via the Paris 
Climate Change Agreement. Thus, protecting carbon sinks and lengthening 
timber rotations would contribute to climate stabilization as well as 
other co-benefits such as clean water, climate refugia, fish and 
wildlife habitat, pollination, and outdoor recreation (Brandt et al. 
2014).
---------------------------------------------------------------------------
    \1\These estimates are conservative as they were mainly derived for 
the tropics where the majority of forest losses occur--boreal and 
temperate forest losses and degradation also contribute significant 
emissions but are not included in these estimates. Intergovernmental 
Panel on Climate Change. 2007. Synthesis report. An assessment of the 
IPCC on climate change. Houghton, R.A., B. Byers, and A.A. Nassikas. 
2012. A role for tropical forests in stabilizing atmospheric 
CO<INF>2</INF>. Nature Climate Change 5:1022-1023.

    As an example, I would like to refer the Subcommittee to proposed 
logging alternatives on the Tongass National Forest (2016 forest plan 
amendment), the Nation's largest forest carbon sink that annually 
sequesters about 8 percent of total U.S. emissions. The agencies' 
preferred alternative would log 43,167 acres of old growth and 261,850 
acres of young growth in the next 100 years, resulting in the 
equivalent emissions of 4 million vehicles annually on Alaska roads. 
These estimates account for carbon stored in wood products and capture 
of carbon by forest regrowth. Tongass logging would release 175 times 
more emissions than the ``reference point'' for project emissions 
recommended by the White House's Council of Environmental Quality 
(CEQ). Emissions would also result in a ``social cost of carbon'' 
estimated at >$100 million in global warming damages by the end of the 
century. These costs are 10 times the projected timber revenues on the 
Tongass. In contrast, an alternative proposed by conservation groups 
(but dismissed by the Forest Service) would rely predominately on 
76,000 acres of low controversy young growth timber to support the 
industry's transition out of old-growth logging. This alternative would 
yield a tenth of the emissions compared to the agencies' preferred 
---------------------------------------------------------------------------
alternative.

    This kind of carbon analysis is completely lacking from H.R. 2936 
that would instead greatly increase logging on national forests through 
the use of Categorical Exclusions (CEs) resulting in post-fire 
clearcuts.

    Question 7. Please explain the science and efficacy of home 
ignition zone treatments.

    Answer. Some 46 million homes now exist within the Wildland-Urban 
Interface (WUI) as development continues to push into fire-unsafe 
terrain (Rasker 2015). Ex-urban sprawl is now combining with human-
caused fire ignitions associated with high road densities and 
development that is causing much of the escalating demand for and costs 
of suppressing wildfires. Passing these costs on to FEMA will not solve 
the problem of forest fire damage to structures as climate change and 
develop trigger more fire. What's needed are effective policies to 
address global warming pollution (e.g., U.S. participation in the Paris 
Climate Agreement), land-use zoning to limit ex-urban sprawl in unsafe 
areas, and reducing fire risks to existing structures using proven 
methods (Chart 5 below). Logging outside this zone will not improve the 
chance that a home will be safe in a forest or grassland fire (Cohen 
2000, Syphard et al. 2012).

        Chart 5. Homeowners' firesafe guide for Montana (2009).
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    As a homeowner myself, I participated in a community fire-wise 
project that concentrated vegetation treatments nearest home 
structures. Individual homes were retrofit with fire-resistant roofs, 
open vents were screened off to prevent entry points for firebrands, 
lower limbs of tree branches were pruned and removed from touching any 
structures, and flammable materials cleared from decking. In studies by 
scientists and insurance companies, homes treated this way would stand 
at least a 90 percent chance of surviving a wildland fire (DellaSala et 
al. 2015).
    In sum, many scientists are increasingly recognizing that getting 
to co-existence with fire is a must (e.g., Moritz et al. 2012, 
Schoennagel et al. 2017). This means concentrating treatments within 
the WUI closest to homes, so that wildfire can be reintroduced safely 
in the backcountry away from homes.

    Question 8. Why do you believe that it is important for the public, 
and independent scientists such as yourself, to be involved in forest 
management decisions on Federal lands through the full NEPA process?

    Answer. As a scientist and citizen, I strongly support public and 
scientist involvement in forest planning decisions as vital to our 
democracy and to disclose a project's impacts negative or positive so 
that the public is well informed and can then weigh in to make those 
projects better.
    Notably, it is not just environmental groups that use the public 
involvement opportunities that NEPA affords; the forest products 
industry (e.g., AFRC) also participates, including objecting and 
litigating.
    First, with respect to the assertion that there is too much NEPA 
litigation, according to a GAO (2010) report on projects promoted as 
fuel reduction (2006-2008), only 2 percent of those projects were 
litigated. The few projects litigated were because the Forest Service 
did not obey the laws passed by Congress or did not use the best 
available science.
    For example, conservation groups on the Siuslaw National Forest in 
Oregon have not filed an appeal since the Northwest Forest Plan (1993) 
shifted logging out of old growth and into thinning prior clearcuts. 
Similarly, there have been virtually no appeals or litigation in over a 
decade in Colville and Wenatchee-Okanogan National Forests due to a 
shift away from old growth logging.
    Provisions in the H.R. 2936 that would severely limit science-based 
review and public input in forest management, would create more not 
less controversy. Below are a few examples where the NEPA process has 
improved project design and implementation and others where irreparably 
harm to the environment was disclosed due to citizen involvement.

    Lost Creek Boulder Creek Project and Middle Fork Weiser River 
Project, Payette National Forest, Idaho--Two landscape scale projects 
were developed in partnership with the Payette Forest Collaborative 
(PFC). For each, the agency developed alternatives based on ``fuel'' 
treatments, wildlife habitat, and fisheries. The collaborative 
recommended combining the best of each alternative emphasizing 
watershed restoration and fuel treatments. The agency's final decision 
was a combination of the best parts of alternatives that was more 
responsive to community concerns than a ``one-size-fits-all'' single 
alternative that would otherwise occur under a CE.

    Crystal Clear Timber Sale EA, Mt. Hood National Forest, Oregon--
This was a straight-forward timber sale of 12,725 acres presented to 
the Wasco Collaborative Group with a reoccurring theme of ``if the area 
was left unlogged, the trees might die from insects, disease or fire'' 
(emphasis added). The project lacked a proper environmental and 
economic analysis, most notably, it would impact spotted owl habitat, 
degrade naturally dense wet forests though wholly inappropriate 
logging, and increase fire risks resulting from the proposed removal of 
fire-resistant trees while leaving logging slash on the ground. The 
project is still in comment phase as the Forest Service considers 
appropriate changes suggested. If this project had been conducted under 
a CE, stakeholders in this national forest would not have had the most 
basic understanding of the details, or precise location of treatments, 
to be able to comment and require the Forest Service to properly 
disclose harm to the forest and wildlife.

    Roseburg BLM District White Castle Project, Douglas County, 
Oregon--A pilot project was proposed to implement an ``ecological 
restoration'' approach using clearcuts in mature moist forests. The 
Court found BLM violated NEPA by not issuing an EIS, failing to 
consider a reasonable range of alternatives, and did not take the 
required hard look at the project's environmental impacts caused by 
clearcuts. If the project had gone through a CE, old-growth forests 
would have been clearcut and fuel hazards elevated with the public shut 
out of the process.

    Jazz Thin, Clackamas River Watershed, Oregon--This project called 
for restoration of plantations through thinning 2,000 acres in moist 
mixed conifer to lower tree density. Conservation groups commented, 
appealed and litigated because most of the logging was within Riparian 
Reserves and Late Successional Reserves, and required building 12 miles 
of roads to ``restore'' this part of the forest. Additionally, because 
the project was analyzed through the NEPA process, local citizens were 
provided with location of the 82 thinning units as well as new roads 
that were being proposed. This enabled them to ground-truth the sale 
before logging commenced. Without this, citizens would not have been 
able to report to the Forest Service that many miles of roads were not 
being proposed for decommissioning, and culverts were not being removed 
as required. The Forest Service relied on this post-project monitoring 
to correct the problems and ensure the appropriate work was followed.

    Sunny South, Tahoe National Forest, California--This logging 
project was conducted through a CE authorized the 2014 Farm Bill. 
Because it was categorically excluded from public involvement and 
analysis of harmful impacts including a range of alternatives to limit 
harm, the public did not find out until after the project's public 
notice was released that the project included intensive logging within 
five occupied California spotted owl territories. The Forest Service 
claimed to satisfy its obligation to ``collaborate'' under the 2014 
Farm Bill CE provision by simply consulting the local logging industry. 
Given the magnitude of impacts, a CE was clearly inappropriate to 
properly assess environmental damages and inform the public of trade-
offs.
Conclusion
    The stated purpose of NEPA is ``to declare a national policy which 
will encourage productive and enjoyable harmony between man and his 
environment; to promote efforts which will prevent or eliminate damage 
to the environment and biosphere and stimulate the health and welfare 
of man . . .. NEPA requires Federal agencies to assess whether certain 
actions significantly affect ``the quality of the human environment.'' 
It was passed by Congress and signed into law by President Richard 
Nixon principally because the environment was being polluted, 
destroyed, and degraded by widespread industrial activities. NEPA 
includes CEs, defined as ``a category of actions which do not 
individually or cumulative have a significant effect on the human 
environment.'' It was meant for small-scale projects, such as 
campground modifications and installation of toilets, not large-scale 
logging projects that harm the environment as currently proposed by 
H.R. 2936. In sum:

    <bullet> The NEPA process, including the opportunity to object, is 
            an important avenue for public participation--it works to 
            ensure the agency takes input from the public in managing 
            public lands, and does not ignore or dismiss that input 
            arbitrarily. Under a CE, there is very little or no 
            opportunity for meaningful input from the public.
    <bullet> NEPA alternatives provide a critical tool for the Forest 
            Service to design a project and evaluate its effects on the 
            environment so that the public can be properly informed 
            about how decisions are made and whether changes are needed 
            to minimize harm to the environment.

    <bullet> Collaboratives do not replace the importance of NEPA. Only 
            NEPA requires agencies to incorporate public comment and/or 
            respond to it. Moreover, some collaboratives have failed 
            because of the agency's unwillingness to meaningfully 
            incorporate input from the public in structuring 
            alternatives.

    <bullet> The vast majority of projects are not litigated and are 
            benefited from public and scientific input. A minority of 
            projects is litigated because the agency is not following 
            the law.

    Thus, in reducing the decision-making authorities of NEPA to a 
binary response--action vs. no action--H.R. 2936 is inconsistent with 
the principals of a democratic society, shuts the door on public and 
scientist input, obscures otherwise transparent decision making in 
safeguarding the environment, and puts the Nation on an dangerous 
downward spiral of environmental destruction not unlike the time before 
Congress passed the Nation's landmark environmental laws (NEPA, ESA, 
Clean Water Act) that ensure our public lands continue to provide clean 
water, carbon sequestration, hunting and fishing and other outdoor 
recreation opportunities that the public strongly supports. Unless of 
course shutting the public out is precisely the goal of the sponsors 
and supporters of H.R. 2936.

    Question 9. Do wilderness restrictions prevent firefighters from 
aggressively fighting fires and protect communities?

    Answer. The short answer is no, absolutely not. This false 
statement was repeated at the hearing by witnesses and lacks a factual 
basis. There are no restrictions on fighting fires in wilderness except 
for provisions that require a Regional Forester's written permission to 
allow bulldozers. Wilderness fire management is about philosophy and 
guidelines, there are no laws, regulations, or other rules that I know 
of that restrict managers from deploying crews in wilderness. It all 
depends on each Forest Plan and the personal discretion of individual 
managers what will or will not happen in wilderness. Also, there is 
rarely any need to go into a wilderness to fight a fire because these 
areas provide opportunities to manage fire for ecosystems benefits 
consistent with the intent of the Wilderness Act. They are also 
generally far removed from human communities, and mainly in unsafe 
areas for firefighters because of steep terrain.
    I also want to discount Mr. Fite's erroneous testimony about the 
Chetco Bar fire in southwest Oregon as his account of the fire 
contradicts the incident commander's informative reports of how fire 
was being handled. The reason the Chetco Bar was allowed to burn in the 
Kalmiopsis Wilderness is because the benefits of fire in maintaining 
ecological values, and the benefits of limiting firefighter exposure to 
the safety hazards of firefighting in the remote and rugged terrain of 
wilderness, outweighed the risk of fire spreading outside the 
wilderness and threatening other values. It was completely unsafe to 
place firefighters in harm's way in some of the most remote and steep 
country in the Nation. The access points in and out, due to steep 
canyon country are limited, and dangerous to firefighters especially 
when fire was burning under 115 degree temperatures and 45 mile-per-
hour winds, as was the case during periods when the fire was spreading.

    Question 10. The Chairman introduced a study into the record called 
``Carbon, Fossil Fuel, and Biodiversity Mitigation With Wood and 
Forests'' in the Journal of Sustainable Forestry. Please respond to the 
study's assertion and compare its findings to the bulk of the 
scientific evidence.

    Answer. I am a member of the Oregon Global Warming Commission's 
Task Force on Carbon (although these are my views only), and based on 
my understanding of the forest carbon life cycle analysis literature, 
the cited study is not supported by the wide body of scientific 
literature and uses unsubstantiated claims and calculations to reach 
bizarre conclusions that seem to defy the laws of physics. I cannot 
tell if it even went through peer review as no reviewers are 
acknowledged, which is customary practice for most journals. I 
recommend that the Subcommittee dismiss this study.
    One of the main reasons why this study is suspect is the authors 
appear to assume there are no carbon losses associated with the product 
life span of buildings by substituting wood for steel (that is--
buildings store carbon indefinitely!). However, the general assumption 
for many modern buildings is that they will outlive their usefulness 
and be replaced within several decades. For instance Architecture 2030 
cites the current average life span of buildings is 80 years, and 
suggests that over the next 20 years globally, we will build, tear down 
and rebuild 900,000 billion square feet of buildings in urban areas 
(e.g., see http://architecture2030.org/buildings_problem_why/). That is 
a lot of carbon decomposing and being emitted to the atmosphere, as a 
building's ``life span'' is typically less than the carbon stored in an 
unlogged forest and carbon is emitted every step of the way through the 
wood processing chain. If the authors were to acknowledge the carbon 
emitted when buildings ``decay,'' they would find that the product 
substitution benefit does not increase forever.

    Question 11. Do Federal conservation designations like wilderness 
increase wildfire risk?

    Answer. The short answer is no, absolutely not, and the reverse in 
fact is true given that fires burn hottest in intensively managed 
areas. During the hearing, there was a great deal of anecdotal 
information presented by witnesses about how active management can stop 
or slow down fires and how wilderness areas intensify fires. Some of 
that evidence was presented as photos on one side of the road 
(unthinned) vs. the other side (thinned) with claims made that thinning 
reduced fire intensity when in fact the forest type (lodgepole pine) 
was actually in a stand where forests are adapted to high intensity 
burns. Mr. Fite's testimony did not acknowledge the ecologically 
appropriate fire regime was indeed high intensity, not low intensity. 
He presented no data or scientific studies to back his assertions, just 
unsubstantiated claims about thinning based on two photos.
    As a scientist, I deal with data, statistically representative 
sample sizes, robust analyses, and peer-reviewed science to guide my 
views on fire and forest management. The study that I cited by Bradley 
et al. (2016, I am a co-author) was the most comprehensive analysis 
ever done to address the management vs. protection question around 
fires and it went through rigorous peer review. To reiterate, we 
examined 1,500 fires using four decades of government fire records and 
conducted a massive computer (GIS) analysis of 23 million acres of 
burned areas to test the assumption that fires burn more intense in 
``unmanaged'' areas (e.g., wilderness, national parks, roadless areas) 
compared to ``actively managed'' areas. What we found was the 
opposite--fires burned unnaturally intense in areas of intense 
management. This was most likely because logging slash and densely 
packed tree plantations promote intense burning (e.g., Odion et al. 
2004).
    In addition to the peer-reviewed studies, I presented Google Earth 
images to illustrate general findings about how heavily logged areas 
burn intensely while nearby remote areas burned less intensely during 
the same fire weather. To reiterate, logging does not stop or slow 
large forest fires burning under extreme fire weather but may, in fact, 
intensify fires.

    Question 12. Does public review of Federal land management 
decisions increase wildfire risk?

    Answer. No, absolutely not and please see my answer to the NEPA 
question #8. Public review of ``hazardous fuels projects'' has improved 
many projects while objections to projects are often because the 
projects would increase fire risks to communities, particularly those 
that reduce overstory canopy closure to unnaturally low levels (e.g., 
30-40 percent), leave logging slash on the ground, do not follow 
thinning with prescribed burning, and remove large-fire resistant 
trees. Those project conditions are known to raise fire risks and are 
often included in fuel reduction projects by Federal agencies. Under 
H.R. 2936, I would expect to see many more of these projects go through 
with minimal public input and environmental review.

    Question 13. Generally, younger trees grow faster than older trees. 
Does that mean we should cut down as many trees as possible to deal 
with climate change?

    Answer. No, absolutely not, and this would result in increasing 
fire risks while emitting more carbon to the atmosphere via logging 
(also see Question 6). For example, in a peer-reviewed study, Law and 
Waring (2015) state:

        ``While some suggest that shorter rotations would provide more 
        effective carbon sequestration (e.g. changing from current 80-
        90 year rotations to 40-50 years), research in the PNW [Pacific 
        Northwest] shows that the total carbon accumulated from longer 
        rotations is superior to that from e.g. 40- to 50-year 
        rotations. When trees are harvested, the carbon released to the 
        atmosphere from increased decomposition, and in the product 
        chain needs to be accounted for when assessing carbon 
        sequestration potential. There is considerable potential for 
        increasing carbon sequestration in PNW forests by using longer 
        rotations, particularly in those forests dominated by Douglas 
        fir in climatically buffered areas, because they can continue, 
        if undisturbed, to accumulate carbon for centuries.''

    The authors go on to state ``If rotations in managed forests were 
extended to 100+ years, the benefit would be significant in terms of 
carbon stocks per unit ground area.''
    Generally, higher levels of forest protection are associated with 
higher carbon storage (e.g., Mitchell et al. 2009), while logging 
reduces carbon storage. For instance, older forests globally store 30-
70 percent more carbon than previously logged forests (Mackey et al. 
2016). Thus, only a no-harvest approach would continue to sequester and 
store carbon long-term in forested ecosystems (Leighty et al. 2006, 
Krankina et al. 2012).

    Question 14. In his recent review of National Monuments, Secretary 
Zinke has proposed commercial logging in some National Monuments 
managed by the National Park Service. Will logging in National Parks 
decrease the occurrence or intensity of wildfires?

    Answer. This is completely false for the reasons already stated. In 
my testimony (and Question 11), I cited a peer-reviewed study by 
Bradley et al. (2016) that examined this question using the largest 
dataset ever. As mentioned, national parks/monuments, roadless areas, 
and wilderness were characterized by fires that burned in lower 
intensities compared to intensively managed areas. This is corroborated 
by studies of fires in Yosemite National Park that burned in natural 
mixed intensity patterns compared to outside the park where fires 
burned more intensely (e.g., Miller et al. 2012). Secretary Zinke's 
call for commercial logging is clearly misplaced and will come with 
stiff opposition from the public that cherishes the few areas remaining 
in America where one does not have to view stump fields or large 
clearcuts. Again, the parks and protected areas are not the problem. 
Logged areas are the problem.

    Question 15. A `snag forest,' which is created by patches of high-
intensity fire, is important wildlife habitat. Can that habitat be 
recreated by clearcutting, as proposed in H.R. 2936?

    Answer. As a scientist, I base my understanding of ecosystems on 
fieldwork, rigorous experimental design and statistical analyses of 
observations in nature. I submit my work to peer review to ensure that 
my assumptions are based on the best available science (peer review is 
the gold standard in science). My published work from the Sierra and 
Pacific Northwest regions shows that snag forests have comparable 
levels of biodiversity to the more heralded old-growth forests, yet 
snag forests are even rarer because they are frequently logged after a 
fire (Swanson et al. 2011, DellaSala et al. 2014, DellaSala et al. 
2017). Snag forests with the highest ecological values are called 
``complex early seral forests'' because, in part, they have abundant 
large ``biological legacy'' trees--live and dead trees remaining post-
fire that ``lifeboat'' a forest through successional stages from young 
to old-growth forest. There is only one ecological pathway to a complex 
early seral forest--a severe natural disturbance in an older forest 
that kills most of the trees (Swanson et al. 2011).
    Clearcuts before or after fire in no way resemble the complexity of 
a complex early seral forest because they lack the very structural 
elements--biological legacies--that a young forest needs to become 
established (DellaSala et al. 2014) (e.g., compare Chart 3 vs. 4). 
Clearcutting after fire (which would accelerate under H.R. 2936), 
damages soil horizons, requires an extensive roads network that 
delivers chronic sediment to streams and degrades water quality while 
killing fish spawning beds, can introduce exotic species to a site, and 
is often followed by herbicides, livestock grazing, and burning of 
slash piles (see Lindenmayer et al. 2008, DellaSala et al. 2015). 
Studies have shown that such logging activities after fire also kill 
most of the natural conifer establishment (Donato et al. 2006; also see 
Chart 4). Dense tree planting from small trees grown in tree nurseries 
then set the site up for the intense fire-logging-intense fire feedback 
system I discussed in Question 3. This type of logging produces 
biologically impoverished plantations and is inconsistent with the 
science of forest resilience.

    Question 16. Can you please tell us more about the ecological value 
of mixed-intensity fires, including large fires, for native 
biodiversity?

    Answer. For over a decade, I worked on rain forest ecosystems 
internationally and in old-growth forests of the Pacific Northwest, 
British Columbia, and Alaska. Naturally, I trained myself to view 
forests as green and verdant. It was not until my 8-year-old daughter 
and I took a hike in a large burn patch near my home in Ashland, Oregon 
that I began to question my own assumptions on what makes a forest, a 
forest. During our hike, she was excited to see how full of life the 
snag forest was because it included colorful flowering plants, small 
trees and shrubs, prolific butterflies, dragonflies, songbirds, bats, 
and woodpeckers--this was not an end but rather a beginning--a 
resetting of nature's successional clock. As a scientist and father, I 
then began to look more closely at the complexity and beauty of nature 
after a large disturbance and decided to team with other scientists 
also studying post-disturbance landscapes to see if this phenomenon was 
consistent in other regions. What I found was surprising and exciting.
    Large forest fires are not ``catastrophes'' of nature but rather 
produce a living tapestry of patch severities (fire effects on 
vegetation) that provide habitat for scores of wildlife across the full 
successional gradient--everything from woodpeckers that require severe 
burn patches and deer that live off the bounty of newly establishing 
plants to spotted owls that nest in the low-moderate burn patches and 
forage in severe patches (DellaSala and Hanson 2015). It turned out 
that my daughter was correct and I have been publishing on the 
importance of these forests in peer-reviewed journals since, including 
a book that I co-edited/co-authored and collaborated on with 27 
scientists from around the world (DellaSala and Hanson 2015). In sum, 
the biodiversity after large forest fires is extraordinary and was 
found repeatedly in fire-adapted ecosystems of the American West, 
Canada, Australia, Africa, and Europe. And it was true for aquatic 
ecosystems as well, where intense fires produced a pulse of nutrients 
delivered to streams that within 1-3 years after fire was associated 
with increased productivity of aquatic invertebrates and fish, provided 
those areas were not logged as stated in Question #15.
    I would invite any member of this Subcommittee to take a walk with 
me in a burned forest before pre-judging that these areas are 
ecological catastrophes. I will also bring my daughter along for 
further explanation as a budding scientist in training!

    Question 17. Some advocates for increased logging in national 
forests claim that there is scientific consensus that active management 
decreases forest fire extent, severity and impacts. As a scientist, 
would you agree that there is scientific consensus in this area?

    Answer. Certain types of active management (e.g., thinning-from-
below of small trees) may lower fire intensity but only under very 
narrow conditions and not during extreme fire weather (see Question 3). 
Other types of active management (pre- and post-fire clearcutting) 
compound disturbances to ecosystems for the reasons stated. In general, 
industrial-scale logging practiced in different regions of the country 
over different time periods has liquidated nearly all the Nation's old-
growth forests and is now poised to do the same for complex early seral 
forests, if logging proposals such as H.R. 2936 are passed. To 
reiterate, it is important to first define what active management 
means.
    Notably, the claim about consensus was actually made by a non-
scientist during the hearing--Mr. Fite. Instead, Bradley et al. (2016), 
using the largest analysis of data on this question ever conducted by 
scientists, found higher amounts of intense fire in actively managed 
areas.

    Question 18. Is there anything else you would like to add?

    Answer. Public lands are the Nation's best chance at maintaining 
intact and fully functional forests and watersheds that support clean 
water, carbon sequestration, habitat for fish and wildlife (huntable, 
fishable, endangered), pollination services, and outdoor recreation 
opportunities among other benefits. H.R. 2936 would turn much of the 
Nation's forests into fiber farms populated by post-fire clearcuts, 
artificially planted trees, and heavily roaded and damaged ecosystems 
that will burn more intensely in fires, compounding disturbances in 
space and time. H.R. 2936 is based on unfounded assumptions, has no 
scientific basis, and would prevent the public from having a say in how 
their public lands are to be managed. This QFA is an addendum to my 
testimony and a supplemental rebuttal to much of the misinformation 
presented by members of this Subcommittee and the witnesses during the 
hearing that lacked any science credibility.

                               Citations

Baker, W.L. 2015a. Are high-severity fires burning at much higher rates 
recently than historically in dry-forest landscapes of the Western USA? 
PLosOne DOI:10.1371/journal.pone.0136147 September 9, 2015.

Baker, W.L. 2015b. Historical northern spotted owl habitat and old-
growth dry forests maintained by mixed-severity wildfires. Landscape 
Ecology 30:655-666.

Balch, J.K., et al. 2016. Human-started wildfires expand the fire niche 
across the United States. PNAS 114:2946-2951.

Bradley, C.M., et al. 2016. Does increased forest protection correspond 
to higher fire severity in frequent-fire forests of the western United 
States? Ecosphere 7:1-13.

Bond, M.L., et al. 2013. Diet and home-range size of California spotted 
owls in a burned forest. Western Birds 44:114-126.

Brandt, P., et al. 2014. Multifunctionality and biodiversity: Ecosystem 
services in temperate rainforests of the Pacific Northwest, USA. 
Biological Conservation 169:362-371.

Clark, D.A., et al. 2013. Relationship between wildfire, salvage 
logging, and occupancy of nesting territories by northern spotted owls. 
J. Wildlife Management 77:672-688.

Cohen, J.D. 2000. Preventing disaster: home ignitability in the 
wildland-urban interface. Journal of Forestry 98:15-21.

DellaSala, D.A., et al. 2013. Alternative views of a restoration 
framework for federal forests in the Pacific Northwest. Journal of 
Forestry 111:402-492.

DellaSala, D.A., et al. 2014. Complex early seral forests of the Sierra 
Nevada: what are they and how can they be managed for ecological 
integrity? Natural Areas Journal 34:310-324.

DellaSala, D.A., et al. 2015. Flight of the phoenix: coexisting with 
mixed-severity fires. Pp. 372-396, In DellaSala, D.A., and C.T. Hanson 
(eds), The ecological importance of mixed-severity fires: nature's 
phoenix. Elsevier, United Kingdom.

DellaSala, D.A., et al. 2017. Accommodating mixed-severity fire to 
restore and maintain ecosystem integrity with a focus on the Sierra 
Nevada of California, USA. Fire Ecology: 13:148-171.

Donato, D.C., et al. 2006. Post-wildfire logging hinders regeneration 
and increases fire risks. Science 311(5759):352.

FEMAT (Forest Ecosystem Management Assessment Team). 1993. Forest 
ecosystem management: an ecological, economic, and social assessment. 
USDA, U.S. Dept. Interior Fish & Wildlife Service, U.S. Dept. of 
Commerce, U.S. Dept. of the Interior National Park Service, U.S. Dept. 
Interior Bureau of Land Management, and Environmental Protection 
Agency. Portland, OR.

GAO. 2010. Forest Service--Information on appeals, objections, and 
litigation involving fuel reduction activities, Fiscal Years 2006 
through 2008. GAO-10-337.

Garcia, M., et al. 2017. Quantifying biomass consumption and carbon 
release from the California Rim fire by integrating airborne LiDAR and 
Landsat OLI data. Journal of Geophysical Research: Biogeosciences 
10.1002/2015JG003315.

Haire, S.L., and K. McGarigal. 2010. Effects of landscape patterns of 
fire severity on regenerating ponderosa pine forests (Pinus ponderosa) 
in New Mexico and Arizona, USA. Landscape Ecology 25:1055-1069.

Harmon, M.E., et al. 1990. Effects on carbon storage of conversion of 
old-growth forests to young forests. Science 247:699-702.

Ibisch, P.L., et al. 2017. A global map of roadless areas and their 
conservation status. Science 354:1423-1427.

Jenkins, S.E., et al. 2011. Late Holocene geomorphic record of fire in 
ponderosa pine and mixed-conifer forests, Kendrick Mountain, northern 
Arizona, USA. International Journal of Wildland Fire 20:125-141.

Keyser A., and A.L. Westerling. 2017. Climate drives inter-annual 
variability in probability of high-severity fire occurrence in the 
western United States. Environmental Research Letters 12: Article 
065003.

Krankina, O.N., et al. 2012. Carbon balance on federal forest lands of 
Western Oregon and Washington: the impact of the Northwest Forest Plan. 
Forest Ecology and Management 286:171-182.

Law, B.E., and R.H. Waring. 2015. Carbon implications of current and 
future effects of drought, fire and management on Pacific Northwest 
forests. Forest Ecology and Management 355:4-14.

Lee, D.E., and M.L. Bond. 2015. Occupancy of California Spotted Owl 
sites following a large fire in the Sierra Nevada. The Condor 117:228-
236.

Leighty, W.W., et al. 2006. Effects of management on carbon 
sequestration in forest biomass in southeast Alaska. Ecosystems 9:1051-
1065.

Lindenmayer, D.B., et al. 2008. Salvage logging and its ecological 
consequences. Island Press: Washington, D.C.

Luyssaert, S., et al. 2008. Old-growth forests as global carbon sinks. 
Nature 455:213-215.

Meigs, G.W., et al. 2009. Forest fire impacts on carbon uptake, 
storage, and emission: the role of burn severity in the Eastern 
Cascades, Oregon. Ecosystems 12: 1246. doi:10.1007/s10021-009-9285-x. 
69.

Miller, J.D., et al. 2012. Differences in wildfires among ecoregions 
and land management agencies in the Sierra Nevada region, California, 
USA. Ecosphere 3(9):80 http://dx.doi.org/10.1890/ES12-00158.1.

Mitchell, S. 2015. Carbon dynamics of mixed- and high-severity 
wildfires: pyrogenic CO<INF>2</INF> emissions, postfire carbon balance, 
and succession. Pp. 290-312, In DellaSala, D.A., and C.T. Hanson (eds), 
The ecological importance of mixed-severity fires: nature's phoenix. 
Elsevier, United Kingdom.

Moritz, M.A., et al. 2014. Learning to coexist with wildfire. Nature 
515:58-66.

Newman, M. 2016. The Pacific Decadal Oscillation, revisited. American 
Meteorological Society. https://doi.org/10.1175/JCLI-D-15-0508.1.

Odion, D.C., et al. 2004. Fire severity patterns and forest management 
in the Klamath National Forest, northwest California, USA. Conservation 
Biology 18:927-936.

Odion, D.C., et al. 2014. Examining historical and current mixed-
severity fire regimes in ponderosa pine and mixed-conifer forests of 
western North America. PLoS ONE 9:e87852.

Rasker, R. 2015. Resolving the increasing risk from wildfires in the 
American West. www.thesolutionsjournal.org; March-April 2015 p. 55-62.

Roos, C.I., and T.W. Swetnam. 2011. A 14-16-year reconstruction of 
annual, multidecadal, and centennial variability in area burned for 
ponderosa pine forests of the southern Colorado Plateau region, 
southwest USA. The Holocene 22:281-290.

Schoennagel, T., et al. 2017. Adapt to more wildfire in western North 
American forests as climate changes. PNAS 114:4582-4590.

Strittholt, J.R., D.A. DellaSala, and H. Jiang. 2006. Status of mature 
and old-growth forests in the Pacific Northwest, USA. Conservation 
Biology 20:363-374.

Swanson, M.E., et al. 2011. The forgotten stage of forest succession: 
early successional ecosystems on forested sites. Frontiers in Ecology 
and Environment 9:117-125 doi:10.1890/090157.

Syphard, et al. 2014. The role of defensible space for residential 
structure protection during wildfires. International Journal of 
Wildland Fire 23:1165-1175.

Thompson, J.R., et al. 2007. Reburn severity in managed and unmanaged 
vegetation in a large wildfire. PNAS 104:10743-10748.

Turner, D.P., et al. 2004. Monitoring forest carbon sequestration with 
remote sensing and carbon cycle modeling. Environmental Management 
33:457-466.

Whitlock, C., et al. 2015. Climate change: uncertainties, shifting 
baselines, and fire management. Pp. 265-289, In DellaSala, D.A., and 
C.T. Hanson (eds), The ecological importance of mixed-severity fires: 
nature's phoenix. Elsevier, United Kingdom.

Williams, M.A., and W.L. Baker. 2014. High-severity fire corroborated 
in historical dry forests of the western United States: response to 
Fule et al. Global Ecology and Biogeography 23:831-835.

                                 ______
                                 

    Mr. Westerman. Thank you for your testimony.
    The Chair now recognizes Mr. Fite for 5 minutes.

  STATEMENT OF LAWSON FITE, GENERAL COUNSEL, AMERICAN FOREST 
               RESOURCE COUNCIL, PORTLAND, OREGON

    Mr. Fite. Thank you, Mr. Chairman. And I offer my thanks to 
Chairman Westerman and Ranking Member McEachin for the 
opportunity to address you today.
    Speedy action by Congress to enable active forest 
management is the best way to reduce risks of catastrophic 
wildfire and improve the resiliency of our Federal forests.
    I am with the American Forest Resource Council, and we are 
a nonprofit trade association that represents manufacturers, 
mill workers, loggers, and private forest landowners in 
Washington, Oregon, Idaho, Montana, and California. Our members 
care deeply about the health and sustainability of public 
forestlands. These are the lands on which their businesses and 
communities depend.
    Our Federal forests, managed both by the Forest Service and 
the Bureau of Land Management, urgently need active management 
to reduce the risk of severe wildfire. At least 58 million 
acres of national forests are at high or very high risk of 
severe wildfire.
    Over 4.5 million homes in this country are at risk from 
wildfire. Over 1.1 million acres of national forest need 
reforestation. But last year, the U.S. Forest Service treated 
less than 204,000 acres, a small fraction of what is needed. 
This is largely because it takes too long to move projects 
through the administrative and legal process.
    Active management works. Thinning overstock stands, 
reducing understory fuels, and other similar techniques reduces 
the fuel base for any subsequent fire. Students learn in 
elementary school that there are three elements to fire: heat, 
fuel, and oxygen--of these three, fuel is the one that we have 
the most ability to manage over the medium to short term.
    I brought some photographs with me to demonstrate how 
thinning and well-designed forest management projects can 
improve resilience of forests. Both this photograph and the 
subsequent photograph were taken from the same spot just facing 
different directions.
    In the first photograph, you can see the green overstory 
there. The fire swept through, took out some of the understory. 
But the larger and more resilient trees went through the fire 
in fairly good shape.
    The next photograph, though, shows you an area where no 
thinning occurred, blackened forests, dead trees, and likely 
sterilized soil. That is the difference that active management 
can make. It makes the difference between a living forest and a 
dead forest.
    The extent, behavior, and impacts of recent megafires are 
without precedent. Warmer climate combines with overstressed 
kindling-like forests to create firestorms that outpace 
anything we have seen.
    It is no coincidence, for example, that over 90 percent of 
the burned acres in Oregon were on Forest Service lands, which 
comprised just over 50 percent of Oregon's forestland, and 
where active management is nearly at a standstill. Again, that 
is only about 50 percent of the forestland, but over 90 percent 
of the fires.
    Science continues to recognize the dangers of these severe 
fires to ecological resources as well. It is not simply the 
timber resources or recreational uses, but ecological 
resources.
    In one 2014 fire, for example, nearly 20,000 acres of high-
quality spotted owl habitat were destroyed. Wildfire is now the 
number one source of loss of habitat for the northern spotted 
owl, 10 times as much as any other source, including timber 
harvest.
    And a recent study showed that the probability of 
extirpation of a California spotted owl increased by seven 
times in areas that had been burned by severe fire.
    We in the Forest Products Industry are ready to partner 
with interested parties, including government, nonprofits, and 
other entities in order to make our forests more resilient, 
more resistant to fire, and to support the jobs and communities 
that these resources can bring.
    I thank the Chairman for his leadership in bringing forth 
H.R. 2936, which has a tremendous array of useful tools that 
are worthy of this Committee's consideration.

    [The prepared statement of Mr. Fite follows:]
  Prepared Statement of Lawson Fite, General Counsel, American Forest 
                   Resource Council, Portland, Oregon
    Thank you for the opportunity to address the Subcommittee on 
Oversight and Investigations regarding urgently needed reforms to allow 
for effective management of our Federal forests. Speedy action by 
Congress to enable active forest management is the best way to reduce 
risks of catastrophic wildfire and improve the resiliency of our 
Federal forests.
    The American Forest Resource Council (AFRC) is a nonprofit trade 
association that represents manufacturers, mill workers, loggers, and 
private forest landowners in five western states: Montana, Idaho, 
Washington, Oregon, and California. Our members care deeply about the 
health and sustainability of public forestlands, on which their 
businesses and communities depend. The forest products industry is the 
lifeblood of many rural communities throughout the West. In many of 
these areas, logging or milling is the only plentiful source of family 
wage jobs, particularly for workers without college degrees. These 
blue-collar middle-class jobs bring the American dream to rural 
communities.
    My remarks will focus on the need to conduct more robust active 
management of Federal forests to address the wildfire crisis and ensure 
stability of rural communities. With active management as a tool, we 
can have Federal forests that are resilient, diverse, productive and 
which serve the multiple uses for which they are designated.
            federal forests urgently need active management
    Our Federal forests, managed by the Forest Service and Bureau of 
Land Management (BLM), urgently need active management to reduce the 
risk of severe wildfire. At least 58 million acres of national forest 
are at high or very high risk of severe wildfire, and over 4.5 million 
homes are at risk. Over 1.1 million acres of national forest need 
reforestation. But last year the U.S. Forest Service treated less than 
204,000 acres, a small fraction of what's needed. A significant part of 
the problem is process and paperwork. It typically takes 18 months to 4 
years for Federal agencies to develop and implement forest projects. 
Forest Service employees typically spend 40 percent of their time doing 
paperwork instead of managing forests.
    In the West, this year's wildfire season has been one of the worst 
on record. It started earlier and fire activity is far above average. 
Nearly 9 million acres have already burned. Portland and Seattle have 
both been covered in smoke for days on end, with ash falling in the 
streets, schools canceled, children huddled inside, and health-
sensitive individuals suffering distress. The more than 40,000-acre 
Eagle Creek Fire devastated many treasured recreational sites in the 
Columbia River Gorge and closed a key Interstate highway for weeks. 
Across the country, nearly 4.5 million homes are at risk from wildfire.
    Near Brookings, Oregon, the Chetco Bar Fire burned nearly 190,000 
acres--an area four times the size of the District of Columbia. This 
fire started in a Wilderness Area where active management is 
prohibited, so the Forest Service did not immediately move to suppress 
it. The fire grew and spread to nearby Federal lands. After burning for 
over 2 months, it was only 53 percent contained as of mid-September, at 
a cost to taxpayers of over $57 million. This fire caused the ash 
clouds and haze to cover the coastal town of Brookings.
    Catastrophic fires are the result of decades of fire suppression, 
coupled with unprecedented fuel buildups due to a lack of forest 
management activity. These catastrophic fires destroy valuable timber 
resources but also degrade many of the other uses of healthy forests. 
In one 2014 fire, nearly 20,000 acres of high-quality northern spotted 
owl habitat burned. In fact, over the past two decades, wildfire has 
become the greatest source of habitat loss for the northern spotted 
owl. Between 1995 and 2015, according to the Forest Service, habitat 
impact attributed to wildfire was ten times the impact from timber 
harvest. Since 2015, wildfire impacts have only worsened. One recent 
study showed that probability of extirpation of California spotted owls 
increases by a factor of seven after a severe fire.
    There is scientific consensus that active management decreases 
forest fire extent, severity, and impacts. An actively managed forest 
will exhibit fire behavior more consistent with the historic role of 
fire in forested ecosystems. Owing to this scientific consensus, many 
groups--including environmental organizations--have changed their 
positions on active management, at least in the roaded ``front-
country.'' At AFRC, we are deeply involved in collaborative efforts 
with such groups, and our attorneys are representing collaborative 
groups in litigation throughout the West. Following the science, 
projects developed in collaboration between industry, environmental 
groups, recreational users, local government, and others have made 
significant strides in forest restoration. But more is needed.
    Some deny the fire science because it conflicts with their 
ideology. They deny that these fires are actually catastrophic, or they 
point to climate change to deny that fuel buildup plays any role in 
fire intensification. Climate change is certainly a factor, but it is 
not working alone. It is not an either/or question. Warmer climate 
combines with overstocked, stressed, kindling-like forests to create 
firestorms that outpace anything the country has seen in living memory. 
It is no coincidence that over 90 percent of the burned acres in Oregon 
this year were on Forest Service lands which comprise just over 50 
percent of Oregon's forestland and where active management is nearly at 
a standstill. The state and Federal Government have about equal amounts 
of land in Oregon, and experience equal numbers of fire starts. But 
burned areas are overwhelmingly concentrated on Forest Service lands. 
Active management will make these Federal forests more resilient to 
these extreme events.
    Attached to this testimony are two photographs demonstrating how 
active management can work. The photographs were taken in the same 
spot, facing different directions, by AFRC's field forester. Both areas 
were affected by the National Fire on the Umpqua and Rogue-Siskiyou 
National Forests in southern Oregon. The first photograph shows where 
thinning occurred in the ``D-Bug'' project. There, the fire crept on 
the ground and left the overstory intact. The fire crews were able to 
hold the fire south of Oregon Highway 230 in these thinning units. The 
second photograph, taken from the same spot in the other direction, is 
100 percent black in the overstory and understory--this is where 
thinning did not occur. This is a stark demonstration of how active 
management can restore the historic role of fire.
    Unfortunately, there are too many bureaucratic and legislative 
roadblocks tying land managers' hands. Because of these roadblocks, 
forests have been burning before they have been treated. At least three 
major projects have been planned in recent years which burned before 
implementation. The 2014 Johnson Bar Fire in Idaho burned the area of 
an in-progress collaborative restoration project; when the Forest 
Service attempted to build on that work to conduct post-fire work. Yet 
a fringe group sued and obtained an injunction--resulting in the 
closure of a sawmill in Orofino, Idaho. In 2016, the Pioneer Fire 
destroyed the area of the Becker Project on the Boise National Forest, 
putting a whole year's timber volume for southern Idaho at risk and 
resulting in severe environmental and recreational impacts. To its 
credit, the Forest Service used all available tools and put two post-
fire projects together in only 9 months. However, those projects are 
the subject of threatened litigation under the Ninth Circuit's mistaken 
Cottonwood decision.
    The Stonewall project on the Helena-Lewis & Clark National Forest 
is a true cautionary tale. After a fringe group sued, the district 
court, acting under the Cottonwood decision, issued an injunction. The 
court noted that an injunction would be a ``wise course'' because ``the 
risk of fire is not imminent.'' This was despite the fire history in 
the area of two fire starts every year for the past 10 years. Mere 
months later, the project began burning in the 18,000-acre Park Creek 
Fire, which was contained only after expenditures of over $10 million 
in suppression costs.
    We need common-sense reforms to lighten the burden of redundant 
administrative process and continuous litigation. Forestry is 
traditionally an area of bipartisan progress, and it still can be. 
There are a number of measures with support from Republicans and 
Democrats, environmentalists and industry. The Committee should take 
quick action to advance forestry reform legislation to give us the best 
chance to mitigate future wildfire seasons.
the resilient federal forests act offers comprehensive solutions to the 
                          forest health crisis
    H.R. 2936, the Resilient Federal Forests Act (RFFA), offers the 
management agencies the tools they need to address the forest health 
crisis. The Act would give additional tools to remove dead trees after 
wildfires, creating new revenue to replant and rehabilitate burned 
forests. It would also enhance the ability to create young and mixed-
age forest habitat to support wildlife. It would incentivize and fast-
track forest projects developed by local collaboratives, usually 
consisting of conservationists, timber industry and elected officials. 
And it would provide an alternative to costly and obstructive 
litigation from special interest groups. In sum, the Act would reduce 
project planning times and lower costs to American taxpayers. The RFFA 
was reported favorably out of the Natural Resources Committee in June. 
Several of these provisions, if enacted into law, would give the 
agencies tools they need.
    The Act contains provisions that would fix the disastrous 
Cottonwood decision from the Ninth Circuit. This echoes bi-partisan 
legislation in both chambers (S. 605 and H.R. 1483). In brief, fixing 
Cottonwood will allow projects to move forward under existing forest 
plans if an appropriate plan-level ESA consultation is completed. It 
will eliminate any requirement for the Forest Service or Bureau of Land 
Management to reinitiate consultation due to new ESA listings or 
critical habitat at the plan level--and only at the plan level. The 
bill does not change existing law regarding applicable requirements to 
consult on individual projects, new forest plans or plan revisions. The 
Ninth Circuit requires consultation on new plans, while the Tenth 
Circuit does not. The Act would leave this circuit split in place.
    The RFFA provides Categorical Exclusions (CEs) under the National 
Environmental Policy Act will allow needed forest management projects 
to be more quickly prepared, analyzed, and implemented. Specifically, 
it authorizes a CE to remove hazard trees and salvage timber to protect 
public safety, water supply or public infrastructure where forest 
management activities are permitted. The Act will also allow forest 
recovery projects to proceed more quickly, addressing a dire need 
created by recent wildfire seasons. The Forest Service has long 
experience with management techniques to reduce forest pests, thin 
hazardous fuels, create and maintain habitat for species, recover 
damaged timber and protect water quality. These projects mitigate risk 
and help create early successional forest habitat which is good for 
wildlife.
    H.R. 2936 addresses both the excessive analysis requirements 
imposed on even modest forest management projects, as well as the 
dysfunctional system of funding suppression costs out of forest 
management program accounts. Provisions in the bill limit the acreage 
of Categorical Exclusions, and prohibits their use in sensitive areas. 
The legislation provides access to the disaster relief fund for 
wildfire suppression expenses in excess of the 10-year average.
    The Act contains provisions to improve the ESA consultation 
process. It allows the Forest Service and BLM to make Not Likely to 
Adversely Affect determinations for listed species. This makes use of 
the extensive biological expertise at both agencies and allows the 
consulting agencies (Fish & Wildlife Service and NOAA Fisheries) to 
concentrate their resources and expertise on projects where adverse 
impact is anticipated. The RFFA also establishes a 90-day deadline for 
projects conducted under a CE for which formal ESA consultation is 
required.
    Another provision that is crucial to forest health is the 
``Eastside Screens'' fix in section 905 of the RFFA. The ``Eastside 
Screens'' were put in place administratively in 1995 to forbid harvest 
of trees above 21 inches in diameter in six National Forests in eastern 
Washington and Oregon. After more than 20 years, these screens have 
become a hindrance to effective forest management. Many forests in 
these areas have too little Ponderosa pine, the historically dominant 
and most resilient species. Instead, younger larger lodgepole pine is 
crowding them out. Good forestry and wildfire protection weighs in 
favor of selectively removing these lodgepoles, but the screens' blunt 
instrument prevents that. Courts have blocked efforts to relax the 
screens even in the context of well-designed forest management. As a 
result, congressional action is needed to ensure the health of these 
Eastside forests.
                               conclusion
    The legislative solutions before you can mitigate the horrific 
effects of catastrophic fire and restore the health of forests and 
rural communities. Now is the time for Congress to make effective 
active management a reality.

                                 *****

                              ATTACHMENTS
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                 

    Mr. Westerman. I thank the gentleman for his testimony.
    I thank all the witnesses for your testimony today.
    As we have heard concerns expressed during the testimony 
about greenhouse gas emissions and climate change, I would like 
to enter into the record this study published in the Journal of 
Sustainable Forestry recently. It is called, ``Carbon, Fossil 
Fuel, and Biodiversity Mitigation With Wood and Forests.'' It 
is by scientists from the University of Washington and Yale 
University. And it identifies how forest management and the 
efficient use of wood products contributes the most to carbon 
dioxide savings.
    We have already heard from some of our witnesses about the 
benefits of thoughtful use of our forest resources, and I am 
looking forward to continuing that discussion during the 
question-and-answer portion of the hearing.
    I will remind Members that Committee Rule 3(d) imposes a 5-
minute time limit on questions, and I will now recognize 
Members for any questions that they may wish to ask. I will 
remind Members that we will have votes scheduled around 4:15, 
so I am going to be a stickler on the 5 minutes.
    I will recognize myself first for 5 minutes of questions.
    Mr. Fite, many of us here are familiar with the term ``fire 
borrowing'' and the problem that the U.S. Forest Service has 
and how fire suppression activities are impacting the Forest 
Service's budget. Do you believe that simply throwing more 
money at the Agency will sufficiently address the fire 
borrowing issue?
    Mr. Fite. No, Mr. Chairman, I don't believe that simply 
throwing more money at it--certainly fire borrowing is an issue 
that needs to be fixed, and it needs to be fixed in a way that 
is manageable for the future.
    But we are looking at a framework where a forest management 
project can take 6 years to go through the NEPA process, a 
forest management project covering a few hundred acres, maybe 
1,500. And you compare that to the NEPA process for a 
construction project.
    So, if there isn't some management reform that is 
implemented, as in H.R. 2936, some of the provisions there, we 
are not going to be able to use any additional funds in a 
reasonable and efficient way to give the taxpayer a good return 
on their investment.
    Mr. Westerman. Would you say if we just throw more money 
then we will be back here later throwing more money if we don't 
address the root problem?
    Mr. Fite. I have no doubt we would be, Mr. Chairman.
    Mr. Westerman. And, Mr. Rigdon, you mentioned in your 
testimony that nearby Federal lands receive nearly five times 
the fire preparedness funding per acre per year as your tribal 
land. Despite the reduced funding, can you describe how the 
fire spread and fire damage on your land compares to that on 
surrounding national forests?
    Mr. Rigdon. Thank you, Mr. Chairman.
    When we have had fires over the last couple years, we have 
witnessed some pretty devastating fires. Currently, this 
summer, we are watching the Columbia Gorge, and that type of 
fire is, sending it into some of the pictures that Mr. Fite 
showed, the stands are replaced and there is nothing there.
    Our goal and what we are trying to do is, I think we need 
to remind ourselves that we need all of the tools in the 
toolbox as we talk about this. And, stopping fire, I think, is 
important now and using it as a tool, when it is appropriate 
doing prescribed burning. But you need to thin the forest down 
through both commercial thinning and precommercial thinning in 
a manner that helps get the place where it is set up so that 
you can have effective fire and do the type of things that will 
enhance the forest health. I think that is a real important 
part of that discussion.
    Mr. Westerman. So, wildfire does not know that there is a 
man-made boundary when it is burning through the forest, and it 
crosses the different jurisdictions and landownership 
boundaries. So, while the tribes have implemented management 
strategies on their own lands to reduce wildfire risk, you are 
still subject to fires from adjacent national forests 
threatening your land.
    Can you share some of the impacts that fires originating on 
Forest Service land have had on the tribes and tribal forest?
    Mr. Rigdon. As we witnessed in 2009, the Cold Springs fire 
in the Gifford Pinchot National Forest burned over into our 
forest. The Warm Springs Tribe continually has those type of 
problems with those fires, and those have direct and heavy 
impacts on Warm Springs in Oregon.
    And the real thing is, as fires come onto the reservation, 
they are coming off these very hot, intense fires from the 
Federal lands, and then they hit the reservation.
    If we don't have our treatments and try to do boundary 
protections, they will actually devastate into our lands and 
cause damages that are unforeseen or can have a great impact 
onto both the ecological things that we want protected but also 
our economy that depends upon some of the timber.
    Mr. Westerman. Despite being required to comply with many 
of the same Federal environmental laws, what approach to forest 
management and institutional differences do you believe set 
tribal forests apart from other federally managed forests and 
contribute to a willingness to engage in active management?
    Mr. Rigdon. Well, I think it is important to recognize that 
our tribal trust lands follow--we have NEPA, we do ESA 
consultation for spotted owls on our reservation, and we follow 
all those laws.
    The one thing that I think is really important is that our 
constituents, our community is tied to these things. What we do 
and the activities that we are doing, our community understands 
and is well-engaged into that, and that is the local community, 
the tribal community. I will go into Safeway and someone will 
tell me if they don't like something that has happened in our 
forest. And I know that connection took place. That place where 
we come from is a real critical part.
    Mr. Westerman. Mr. Rigdon, following my own rule, I am 
going to have to close my time here and recognize the Ranking 
Member, Mr. McEachin, for 5 minutes.
    Mr. McEachin. Thank you, Mr. Chairman.
    Dr. DellaSala, what is the evidence that climate change is 
currently the biggest driver of forest fires? Why isn't the 
fire deficit the biggest driver?
    Dr. DellaSala. Well, we look at long periods of time in 
terms of how fire behaves in relation to drought cycles, for 
instance. When we go back into the early 1900s, there was a 
period of extended drought and a very active fire season. You 
can see that from Chart 1.
    The evidence that we are now in a warming period is 
overwhelming. The IPCC report that you quoted shows there is a 
direct climate signal that is affecting wildfire behavior in 
many places around the globe, including the western United 
States.
    We can now attribute about half the acres that have been 
increasing in recent decades to a warming climate that is 
providing the conditions for more extreme fire weather, such as 
high winds, dry conditions, drought. All that adds to how a 
fire behaves across an area and explains a good chunk of why we 
are seeing these increases right now.
    Mr. McEachin. Thank you for that.
    Since we will be seeing more tinderbox-like conditions that 
are going to make these types of fires common and more intense, 
what type of activities should we be advocating to both prevent 
and prepare for these types of fires?
    Dr. DellaSala. Well, thank you for asking that. I want to 
refer to two charts in my testimony. First of all, a visual, 
Chart 3A and B. Those are the kinds of activities that are not 
going to make forests resilient. This is going to worsen the 
problem.
    The top photo is from the Douglas fire complex in southwest 
Oregon. There were two other fires burning at the same time 
under similar weather conditions in remote areas. Those two 
fires burning in remote areas burned in a very healthy 
ecosystem wildfire pattern.
    The fire that burned through those private lands with 
plantations blew up when it hit the small trees that were 
densely packed and logging slashed as high as three-story 
buildings. That is the kind of activity that will promote more 
and intense fires.
    And it is not just anecdotal. This chart here shows 1,500 
fires that were examined over four decades using peer-reviewed 
science showing very similar results that areas with intense 
logging had the highest severity of fire.
    If we are going to get through this period of warming 
climate, we have to learn how to co-exist with these fires by 
directing more funds to helping people that are preparing their 
homes for the event of more fire, by reducing this kind of 
logging in the back country, and focusing activities on working 
with fire and not suppressing every fire under safe conditions.
    Mr. Westerman. Let me ask you, because we only have 
literally 2 minutes left. Let me ask you a little open-ended 
question, and that is, you have heard a lot said today. Is 
there anything that has been said today that would prompt you 
to comment in any way that you care to, please?
    Dr. DellaSala. Yes, absolutely. First of all, the fires 
that are burning in these ecosystems are not ecological 
catastrophes. They are catastrophes, no question, when they 
affect people. But these are not ecological catastrophes. I 
have been working with scientists all over the world for the 
past decade documenting the biodiversity that occurs in these 
fire-dependent systems.
    Even the slide that was shown before, that was a lodgepole 
pine forest that needs high-intensity burning to open up the 
seed cones. By thinning that forest, you are actually going 
against its fire regime because it needs a hot fire to prop 
open those cones.
    I just want to point out the ecology of these areas. The 
same thing with the spotted owl. I served on the recovery team. 
The owl is not at risk from forest fires. What happens to the 
owl is that it abandons its territory when there is a post-fire 
logging operation.
    They do quite well in a mixed severity fire event. It is 
not an ecological catastrophe. We have to figure out how to 
manage these fires in a way that allows for ecosystems to get 
through this change in climate. More logging will not do that.
    Mr. McEachin. Thank you. We have just about run out of 
time, so I yield back.
    Mr. Westerman. I thank the gentleman.
    I have been informed that votes have been pushed back to 
4:45, so we have a little bit more time, but we are still going 
to stick strictly to our 5-minute rule.
    I will now recognize the gentleman from Louisiana, Mr. 
Johnson.
    Mr. Johnson. Thank you, Mr. Chairman.
    It was said earlier that there have been a number of 
hearings, multiple hearings on forest fires. But I just want to 
go on record to say I appreciate the hearing and the 
opportunity. I am one of a few new Members of Congress on this 
Committee. This is valuable to us, so thank you for your time, 
all of you, in being here.
    Mr. Chilcott, the urgent threat to human health and safety 
requires us, I think we all agree, to address the spread of 
these catastrophic wildfires as soon as possible, and it 
mandates a decisive response. I think it is critical that all 
of Congress, everyone understands the impacts that fires are 
having on Americans' lives.
    I am from the state of Louisiana. We have fires but 
certainly not to the extent that they have them out West, so it 
is important for folks in different regions of the country to 
understand all of this.
    Mr. Chilcott, do you think that forest fires spreading to 
areas of the country that don't usually experience wildfires is 
something that we need to contend with going forward?
    Mr. Chilcott. Thank you for the question, Congressman.
    We absolutely need to prepare for wildfires, no matter 
where they are coming from. Our human population is also part 
of our environment and part of our community, and that is why 
we need a strong partner like the Federal Government to come up 
with the policies that help us actively manage these fires and 
these stands where we can protect our community and protect our 
environment, to say nothing of our water and air quality. Thank 
you.
    Mr. Johnson. I have one more for you. The thing that jumped 
out to me in your written testimony was the references you made 
to these frivolous special interest lawsuits. And that is a big 
problem in a number of places across the country. And as you 
point out, it serves to delay much-needed management of the 
National Forest System.
    You talked about, in your written testimony, how it 
provides financial incentive to litigate the projects. Can you 
expand on that a little bit more today?
    Mr. Chilcott. I am certainly not an expert, Congressman. 
But I would say that we have created a second-tier industry in 
Washington of attorneys who can sue the Federal Government at 
will, recover their attorney's fees, and stop or delay a 
project until it loses its value.
    I think that is a problem, when we have professional land 
management folks out there that we have hired to go out and 
assess the resources out on the ground and come up with a 
recommendation to better treat them and take care of them for 
the American people and provide for the protection of our 
citizens.
    Mr. Johnson. So, it hinders the efforts of people that are 
trying to properly manage the forest system, right?
    Mr. Chilcott. They have become managers of paperwork and 
litigation rather than resources.
    Mr. Johnson. Thank you.
    Do you have particular reforms in mind that you are 
prepared to talk about today on how we could fix that? Because 
I think there would be a consensus among us that we would want 
to try to solve that problem or help with it.
    Mr. Chilcott. I know that the National Association of 
Counties has policy on this, and I would be happy to get that 
back to you shortly, by the end of the week.
    Mr. Johnson. That would be great. I think that would be 
valuable to us.
    Mr. Fite, I think that perhaps some of your slides or some 
of the information you have presented has maybe been called 
into question here in the last few minutes. Would you want an 
opportunity to rebut that or respond?
    Mr. Fite. Certainly. Thank you, Congressman.
    I want to talk about just the idea that this is all climate 
change and we should just let everything go. Where we are at in 
the western dry forest is we have catastrophic wildfires, the 
likes of which we have not seen. And this is a century of fire 
suppression, lack of active management, and a warming climate 
on top of that.
    So, if you are in a hurricane zone, you are still, 
regardless of whether folks argue about whether hurricanes have 
something to do with the climate, you are still going to put 
your house on stilts. And that is what we are talking about. If 
you do more active management, then you can build a more 
resilient forested landscape.
    The photographs were from a fire called the National Fire 
in southern Oregon. Lodgepole pines, in certain respects, are 
fire resistant, especially the old ones. But the natural role 
of fire is they come through, and you still retain some live 
trees. That is what you have when you have a living forest. You 
do not have everything die like it did in the unthinned stands.
    And also, just to address your question about forest fires 
spreading to new areas, we saw in 2015 a forest fire that 
lasted 6 months or more in the Olympic National Forest, which 
is basically a rain forest, and that shows you where we are out 
of balance in how we are managing our forests.
    Mr. Johnson. Thank you.
    I am out of time. I yield back.
    Mr. Westerman. The gentleman yields back.
    You know it is a good hearing when you hear discussion 
about the serotinous cones of lodgepole pine, and then an 
attorney talks about frivolous lawsuits all in one meeting. As 
we continue on, I recognize Mr. Clay for 5 minutes.
    Mr. Clay. Thank you, Mr. Chairman, and I thank the 
witnesses for their participation today.
    Mr. DellaSala, we hear the claim that the intense fires we 
are seeing recently are due to forests being poorly managed by 
the Federal Government. But based on your testimony, it seems 
like a lot of science has gone into helping land managers make 
educated decisions about fire, climate change, native species, 
and the wildland urban interface, and how they are affecting 
forestlands.
    My question is, do you think that our national forests are 
suffering from a lack of active management and that they are 
overgrown and unhealthy?
    Dr. DellaSala. Thank you for that question.
    First of all, as a scientist, I don't deal in anecdotal 
observations, and I have been hearing a lot of anecdotal 
observations about fire behaving one way or another. I deal in 
data. When I look at how a fire is behaving, I look at it over 
a statistically representative sample size, and I am not 
hearing that in a lot of the statements.
    So, when I look at the full range of data, over 1,500 fires 
were looked at, areas intensively managed, burned in the 
highest intensities, areas protected in national parks and 
wilderness areas burned in lower intensities.
    The problem is not the national forests. The problem is--
this landscape will burn as a firebomb. Plantations burn hotter 
in a forest fire than native forests do. We know this from 
numerous studies based on peer-reviewed science.
    When we talk about active management, we need to be clear, 
what do we mean? Are we talking about thinning? Salvage 
logging? Clear-cut logging? They all have different effects on 
fire intensity.
    Clear cuts, by and large, will make the area a firebomb. 
Thinning may reduce fire intensity, but not under extreme fire 
weather. Post-fire logging will only reduce forest resilience 
because it removes the very components that forests need to 
come back.
    For example, this beautiful picture here, I had to retrain 
my eye in terms of what a forest was. I was working in rain 
forests for 10 years, and then I started to look at fire-
dependent forests. I was used to seeing this beautiful old-
growth forest.
    But that beautiful old-growth forest, at some point, is 
going to burn, and it is going to look like this beautiful 
blackened forest. The two of them are linked together. You 
cannot have one without the other. When you pull out these big 
trees, whether they are alive or dead, that prevents the forest 
from going through its natural process of becoming an old 
growth over time.
    That is what logging removes. That is not resilience. That 
is setting the area up for something other than a forest over 
time and increase in fire hazards.
    Mr. Clay. It sounds like one of the problems is that we 
have some science deniers here.
    Let me ask you this--every year, the Forest Service spends 
more money and puts more and more firefighters at risk with 
multiple fatalities each year. If climate change continues to 
go unabated, is there anything that will reduce the risks to 
firefighters, or reduce the amount the Forest Service spends on 
firefighting?
    Dr. DellaSala. Great question. Thank you for that. I just 
went through a very active fire season in southwest Oregon. The 
Chetco Bar fire was burning essentially pretty close to where I 
live, and the Forest Service did the right thing.
    It is incredibly steep canyon country, some of the steepest 
country in the world. This is why wilderness areas are still 
wilderness. They are remote. Putting firefighters into that 
area would have been a death trap.
    And if my son or daughter was a firefighter, I would not 
have wanted them in the Chetco Bar fire area. It would have 
been hazardous. There was no way out. The Forest Service made 
the right call. The fire burned naturally, and then the winds 
kicked up, the temperature increased to 115 degrees and the 
fire took off.
    That is the new novel climate that we are headed to. If we 
want to solve this problem, we need to work on greenhouse gas 
emissions, mostly coming from the burning of fossil fuels and 
deforestation globally.
    That is the real driver of hurricane intensity, of fire 
increases, of sea-level rise, of melting glaciers. This is 
happening all over the planet. There is no one-size-fits-all 
solution to getting out of a climate change fix.
    Mr. Clay. Sounds as though we need to look at the data and 
the science and start making decisions based on what is real. I 
thank you for your answers, and I yield back.
    Mr. Westerman. The gentleman's time has expired.
    I now recognize the gentleman from Idaho, who has certainly 
seen his share of forest fires in his state, Mr. Labrador.
    Mr. Labrador. Thank you, Mr. Chairman. And thank you for 
holding this hearing today. The topic we are discussing could 
not be more relevant to what is happening on the ground in 
Idaho right now.
    This year is one of the worst fire seasons in U.S. history. 
Nationwide, over 8.5 million acres have burned, and in Idaho 
almost 600,000 acres have burned. Idahoans have suffered 
throughout a summer of terrible smoke with air quality reaching 
unhealthy, and even hazardous levels. I know that the lack of 
proper forest management by the Federal Government is not the 
sole cause of these fires, but the lack of management is 
definitely a major factor.
    Mr. Rigdon, do you consider yourself a science denier?
    Mr. Rigdon. No, I do not.
    Mr. Labrador. No. Mr. Chilcott, do you consider yourself a 
science denier?
    Mr. Chilcott. No, sir, I do not.
    Mr. Labrador. Mr. Fite, do you consider yourself a science 
denier?
    Mr. Fite. I do not, Congressman.
    Mr. Labrador. All right. So, Commissioner Chilcott, when I 
travel throughout my district, I hear the same two things from 
my County Commissioners--first, that they are scared that the 
unhealthy conditions of the Federal forests that surround their 
communities pose significant risks to the safety of their 
constituents; and second, that they are concerned about the 
impact that the lack of active management is having on their 
local economies.
    I believe that we can address both of these concerns by 
increasing active management on our Federal forests. Do you 
believe that the lack of management has led to an over-
accumulation of hazardous fuels in the forest?
    Mr. Chilcott. Yes, sir, I do.
    Mr. Labrador. And that is because you deny science?
    Mr. Chilcott. No, sir, I do not deny science.
    Mr. Labrador. Is this over-accumulation of hazardous fuels 
a safety threat in your county?
    Mr. Chilcott. It is.
    Mr. Labrador. Why do you say that?
    Mr. Chilcott. It is a threat to not only our public safety 
personnel who address the fires, fight the fires, and evacuate 
the citizens, but to our respiratorily-compromised population 
who has to leave our jurisdiction to find clean and safe air; 
the impact to our water and water quality; the impact to our 
economy through the loss of revenue from the tourism base; from 
the cost to local government to mitigate the impacts of the 
fire and to pay the personnel that are responding to the fire.
    That is why we need a partnership with our Federal 
Government and our state to better address the problems that 
are facing our citizens and our economies.
    Mr. Labrador. What impact would an increase in active 
management have on the fuel load and the economy in your 
county?
    Mr. Chilcott. What impact?
    Mr. Labrador. Active management, what would it do for your 
community? What would it do for the fuel load in the forest, 
and what would it do to your community?
    Mr. Chilcott. Thank you, Congressman. Sorry for 
interrupting.
    Mr. Labrador. No, it is all right.
    Mr. Chilcott. It would reduce the fuel load, increase jobs, 
enhance the economy, produce revenue for not only loggers or 
people on the ground but also for the Agency and for local 
government to produce revenue to create infrastructure and 
education opportunities for our students.
    Mr. Labrador. Thank you.
    Mr. Fite, opponents of active forest management offer the 
argument that fire is a natural part of the landscape and, 
therefore, we should not manage the forest to prevent 
wildfires. In your written testimony, you state that fires and 
actively-managed forests actually behave more consistently with 
the historic role of fires in the ecosystem. Can you explain 
why this is the case?
    Mr. Fite. Absolutely, Congressman, that is because of a 
lack of active management and decades of fire suppression led 
fuels to build up well above the historic ranges, and the 
composition of forests are outside the historic range of 
variability.
    So, when a fire comes through, it doesn't act like fire has 
historically. What it acts like is the catastrophic fires that 
we have seen. And, in fact, the science bears this out. There 
are several scientific studies each year about the threat of 
megafires, for example, to old forest species.
    Mr. Labrador. But your colleague sitting right next to you 
says the opposite, that science actually shows that active 
management increases the intensity of fires.
    Mr. Fite. Well, I respectfully disagree. And I would point 
out, we at the industry, we have worked with a lot of 
conservation-minded organizations and that is because they are 
following the science to where we need to do active restoration 
work in a lot of our Federal forests.
    So, I think that if you follow the broad stream of where 
the science is taking you, without cherry-picking, that is, I 
think that is where you should end up.
    Mr. Labrador. Let's talk about cherry-picking. Are you 
familiar with this chart that he just presented? He says that 
between 1950 and 1980, there were less fires. Wasn't there more 
active management of forests between 1950 and 1980?
    Mr. Fite. There was, Congressman.
    Mr. Labrador. Thank you.
    Mr. Westerman. The gentleman's time has expired.
    I now recognize the gentlelady from the beautiful island of 
American Samoa, who is blessed with a beautiful tropical rain 
forest, for 5 minutes, Mrs. Radewagen.
    Mrs. Radewagen. I want to thank you, Mr. Chairman, along 
with the Ranking Member for holding this oversight hearing to 
explore solutions to reduce the risks of wildfires.
    I also thank the panel for your appearance today.
    You know, Mr. Chairman, as we all do, when the fire bell 
rings, there are no politics among the response of our brave 
men and women in the firefighting corps. The firefighting 
family is a very close-knit group extending throughout the 
United States and all its territories, including a small place 
where I come from, American Samoa.
    Firefighters from American Samoa, based in the National 
Park of American Samoa, just this past August, recently fought 
side by side with their fellow firefighters in Modoc National 
Forest in Alturas, California, and Sheehy Memorial Fitness Park 
in Redding, California, last year.
    The Samoan firefighting crew responded to the call to help 
their fellow firefighters in multiple instances in California 
and Nevada over the past several years. And last year, I 
visited our Samoan firefighters at their work site in Redding, 
California.
    There is a long and proud tradition of courage in both 
Samoan and firefighting culture, and I commend all the 
firefighters in the states and territories for putting 
themselves in harm's way in order to protect the natural beauty 
of all our parks, for the recreation and enjoyment of everyone.
    I have a question for Mr. Chilcott. In addition to a 
reduced wildfire threat and an economic boost from timber 
harvest, what other benefits might communities and the 
surrounding ecosystems enjoy from healthier actively managed 
forest?
    Mr. Chilcott. Thank you, Congresswoman.
    The benefits are broad. Certainly, the economic benefit you 
mentioned is critical to our communities. The impact of an 
enhanced environmental position where we do not have to breathe 
in hazardous smoke, the improvement of our water quality are 
important. We have seen scarring that lasts for decades from 
these catastrophic wildfires in a valley that is 73 percent 
owned or managed by the Federal Government, limiting what we 
can do and perform to protect our viewshed. So, active 
management is critical, and your partnership is critical for us 
to move forward. Thank you.
    Mrs. Radewagen. Mr. Rigdon, how do other important natural 
resources on tribal land depend on effective forest management, 
and how does the successful forest management ensure that the 
tribes can continue to utilize those resources?
    Mr. Rigdon. I think that a critical part of this 
conversation is, historically, our lands are shaped by the use 
of fire by my ancestors, by the people there before that lit 
fires and created the habitats that were necessary, that made 
the West what the West was with the large ponderosa pine and 
savannah forests of those areas. There is food. There are 
natural resources. There are things that our community depends 
upon today. There are cultural practices today that are 
dependent upon that type of habitat that is there. It is 
important that the role fire plays was historically done 
through our people. And sometimes I get it, kind of, management 
has always been a part of the land, and I think it is an 
important part. Our people did it in a way to sustain our way 
of life in that place there. That traditional ecological 
knowledge is a very important part of the history of what the 
land tells us, and 100 years of not recognizing that science, 
and fire suppression, and those activities have helped lead to 
where we are with some respect to the unhealthiness of the 
forest you see.
    Mrs. Radewagen. Thank you, Mr. Chairman.
    I yield back.
    Mr. Westerman. The gentlelady yields back. The Chair now 
recognizes the gentleman from California who is also no 
stranger to catastrophic wildfire in his district, Mr. 
McClintock, for 5 minutes.
    Mr. McClintock. Thank you, Mr. Chairman. When the Ranking 
Member complains we have done too many hearings on catastrophic 
wildfires, I think maybe his perspective would be different if 
he could have been at the command center at the King Fire a few 
years ago, for example, in my district where we were in 
imminent danger of losing two entire towns, Georgetown and 
Forest Hill, to that fire. One of the firefighters, with tears 
in his eyes, came to me and said, ``Congressman, I can't even 
get to this fire on the ground. We used to have good timber 
roads. I could get equipment there. All I can do now is drop 
stuff from the air and pray to God the wind shifts.''
    The wind shifted. Those towns were saved. If it hadn't, we 
would have lost not only those towns, the fire would have 
burned into the Tahoe Basin, which is catastrophically 
overgrown. I wish you could have been at the Rim Fire. We were 
told we rely too much on anecdotes. When I was at the command 
center for the Rim Fire, which took out several thousand acres, 
I asked the firefighters there, ``What message can I take back 
to Congress, in your name?'' They said two words: treatment 
matters.
    Where the fire hit treated areas, it slowed, it broke up, 
they could put it out. But they said there is just too little 
of it here. That is the advice of the people actually on the 
ground.
    But I want to explore this notion that, oh, it is just 
climate change. We really cannot manage our way out of it.
    Mr. Fite, if the climate is growing warmer, and it is. It 
has been on and off since the last ice age, that is undeniable. 
And we are looking at less precipitation. I am told that snow 
in overcrowded forests is trapped in the canopy and ends up 
evaporating rather than being absorbed into the ground as 
groundwater. And I am told the transpiration rate of 
overcrowded forests is a huge problem, even in normal years. In 
a drought, it is absolutely lethal. If we are looking at warmer 
temperatures and less precipitation, doesn't it make more sense 
to thin our forests so that we can match the tree density to 
the ability of the land to support it?
    Mr. Fite. Absolutely.
    Mr. McClintock. The assumption is that increasing levels of 
carbon dioxide in our atmosphere are creating an artificial 
global warming. What is the effect of wildfires on carbon 
dioxide?
    Mr. Fite. Congressman, catastrophic wildfires like we have 
seen, they shoot tons and tons of carbon into the atmosphere.
    Mr. McClintock. Well, in fact, there was one estimate that 
just a single fire in California recently released more carbon 
dioxide into the atmosphere than had been saved by all the 
Draconian California laws over a period of 3 years, making a 
mockery of all of those laws. Yet, we are told, ``Don't worry, 
just let the fires burn, they are nature's friend.''
    How is that a consistent scientific argument? I don't 
understand it.
    Mr. Fite. I don't believe it is consistent. When you have 
forests that are in need of management, if they are managed, 
they become good stores of carbon, and you can produce products 
with wood. You can build things that are so much less carbon-
intense.
    Mr. McClintock. In fact, trees are a huge source of 
sequestration for carbon, are they not?
    Mr. Fite. Absolutely.
    Mr. McClintock. What absorbs more carbon, a young 
adolescent growing tree or on an old tree?
    Mr. Fite. Generally, the younger tree. And if you don't 
have enough----
    Mr. McClintock. Doesn't it make sense to harvest the older 
trees and replace them with young growing trees to sequester 
more carbon?
    Mr. Fite. It depends on the specific landscape.
    Mr. McClintock. When we mill timber, isn't that carbon then 
sequestered indefinitely in that milled timber? Hundreds of 
years it was used for a building, for example.
    Mr. Fite. It is, and that is a much less intense process 
than some other building materials.
    Mr. McClintock. Our Committee, in the hearings that we have 
had, has often been shown aerial photographs of forests 
throughout the western United States. And you can very clearly 
tell the boundary between managed land and neglected land 
simply by the condition of the forest. It is absolutely 
dramatic. I have seen it myself from the air on aerial tours in 
the Sierra. You can tell exactly where the property line is.
    How clever of it is the climate to know exactly where the 
boundaries are between privately-managed lands and the public 
lands?
    Mr. Fite. It seems quite clever.
    Mr. McClintock. We are told that controlled burns are an 
important tool. They are. But the Detwiler Fire that we just 
had in the Sierra, near Yosemite Valley, as a matter of fact, 
we were told that they cannot get permits for controlled burns.
    Mr. Westerman. The gentleman's time has expired. I 
appreciate the gentleman joining the Committee today. Also, 
another new Member of Congress, but certainly no stranger to 
forest fires from the great state of Montana, Mr. Gianforte, 
for 5 minutes.
    Mr. Gianforte. Thank you, Mr. Chairman, and Ranking Member.
    Forest fires have devastated Montana this past summer. I 
have been on the ground on five of those fires, and I have seen 
firsthand the result of failing to manage our forests. We 
burned over 1.2 million acres in Montana this past summer. That 
is equivalent to the state of Delaware--blackened. We lost 
lives fighting those fires, livelihoods were threatened, 
habitats were destroyed, and we had dangerous air quality in 
our communities throughout the entire summer. Our fire season 
is longer, and it is further depleting these resources and 
extinguishing habitat.
    Commissioner Chilcott, in your testimony, you highlighted 
the growing costs associated with wildfire suppression. And you 
believe that, from your testimony, that the Forest Service's 
hands are really tied when it comes to forest management 
because of the onerous NEPA process and also the Endangered 
Species Act. You also mentioned Equal Access to Justice being 
an impediment. You advocate for more active forest management.
    Could you provide some examples from your community in the 
Bitterroot, about forest management on private land adjacent to 
Federal lands, how the fires reacted when they came off the 
public lands onto the private lands that had been managed?
    Mr. Chilcott. Thank you, Congressman. It is a great 
question. Yes, I would be happy to.
    In my written testimony, I included pictures of the Tabke 
private land, as well as state trust lands that had been 
mechanically treated and had harvested timber that were 
adjacent to the Lolo Peak Fire. When the Lolo Peak Fire hit 
those managed lands, the fire intensity dropped to the ground 
and was able to be controlled, in my opinion, saving the 
community of Florence, Montana. These are examples that 
demonstrate how active management partnership between public 
agencies and the private sector work. And they also protect an 
enhanced stand, our stands of trees, and reduce the mortality. 
That is why I am here today, to ask for policy that promotes 
that partnership.
    Mr. Gianforte. Commissioner, we have heard other testimony 
today from the panel that forest management and thinning really 
does not help. In fact, it makes things worse. I have been in 
Ravalli County, the Roaring Lion Fire last year. It was a 
devastating event. We almost lost the town of Hamilton. I 
remember the fire coming down the hill, and it intersected with 
the Roaring Lion Ranch there, which had been managed. And the 
fire behavior changed dramatically when it hit that boundary.
    You have been out on-site with these fires in Ravalli 
County. Can you describe what it looks like when a fire comes 
off of these unmanaged lands onto a managed forest?
    Mr. Chilcott. Again, thank you for the question, 
Congressman.
    Yes, when we see the fire and the fire crews fighting a 
fire that is catastrophically engaged and it is coming down a 
mountain toward one of our--in fact, our largest community in 
Ravalli County--and it hits these managed lands that were done 
on private property, and the fire intensity drops almost 
immediately and gives our fire suppression personnel an 
opportunity to engage the fire head on, and stall or stop the 
fire at that point, it will work around those managed lands and 
stay in the untreated land and continue to create havoc. But 
they are critical to the survival of our communities.
    Mr. Gianforte. I recognize that is just an anecdote. But 
when I was on the ground there meeting with the sheriff in 
Ravalli County, he told me that because those lands had been 
managed, hundreds of homes were saved. I just say that is a 
pretty good anecdote.
    We had over 40 fires burning in Montana just a month ago. 
And many of our communities were choking on smoke. I know your 
community was one of those.
    Can you talk briefly about the impact of the smoke on your 
county and on your people there, particularly those with 
breathing disorders like asthma or other?
    Mr. Chilcott. Again, thank you.
    Air quality in our community often in late summer is 
unhealthy or hazardous forcing our respiratorily-compromised 
population to find another place to reside at their own cost. 
Our visitors don't visit, our hikers don't hike, and our 
fisherman don't fish. The economic impact is incredible on a 
tourism-based economy. Our residents go inside to escape the 
thick, dense, hazardous smoke. It still permeates our 
buildings. It particularly hits our elderly and our young. 
Active management will help mitigate the impacts of this smoke.
    Mr. Gianforte. Thank you, Commissioner.
    I yield back, Chairman.
    Mr. Westerman. The gentleman yields back. The Chair now 
recognizes the gentleman from Arizona who is certainly familiar 
with dry climates and forest fires, Dr. Gosar.
    Dr. Gosar. Thank you very much, Mr. Chairman.
    Dr. DellaSala, in your professional opinion, would you say 
that the Southwest ponderosa forests are healthy?
    Dr. DellaSala. I don't know what ``health'' means. I would 
have to have a definition of your health versus my health.
    Dr. Gosar. Well, then tell me what your definition of 
health is.
    Dr. DellaSala. Well, I look at ecosystems in terms of----
    Dr. Gosar. Well, then, let's get right after it.
    Tell me about the ecosystem of the Southwest forest on 
ponderosas.
    Dr. DellaSala. OK. Southwest ponderosa pine forest is----
    Dr. Gosar. Is it healthy?
    Dr. DellaSala [continuing]. Predominately a low intensity 
fire system with frequent return intervals. There are examples 
in the Southwest where, because of suppression, there has been 
a buildup of small trees. And there are some good thinning 
projects going on in that system because it is a low-intensity 
fire system. And there are also other factors that are out of 
balance with the Southwest ponderosa pine system. The loss of 
old growth, the extensive road densities that are in that 
system, the diminished water quality because the sediment 
related to logging impacts along roads, salvage logging. I can 
go on.
    Dr. Gosar. So, tell me also, give me an example--is the 
sterilized soil that we had in the Lolo Fire, is that a healthy 
ecosystem?
    Dr. DellaSala. Again, it depends on what your definition of 
``health'' means. A fire does not destroy soil horizons. A 
fire----
    Dr. Gosar. No, no, no. Unfortunately, it does. Typically, 
in a ponderosa fire, you have low level fires that are in 
grasses because a ponderosa tree has a very thick bark. It is 
very fire retardant. So, what ends up happening, typically in 
the past, we have seen these grass fires that were really 
incidental. But now what we see are crown fires that burn so 
incendiary that we actually sterilize the very topsoil that we 
don't get growth for up to 50 years, sir.
    Let me ask you another question since you are the scientist 
here. If I was an M.D., and I actually admitted 100 patients to 
a hospital, and three of them survived, would I be a good 
physician?
    Dr. DellaSala. Absolutely not.
    Dr. Gosar. You bring up the endangered species, because 
that is the rate, less than 3 percent of species have we been 
able to take back off the endangered species list because of 
poor management by the Fish and Wildlife Service. That is 
hardly a success story that I want to talk to you.
    Let me ask you another question. Are you a lobbyist?
    Dr. DellaSala. No, I am not a lobbyist.
    Dr. Gosar. Whoa. Whoa. Whoa.
    On your CV that you submitted, you said that you are a 
lobbyist since 1995.
    Dr. DellaSala. I am not a registered lobbyist.
    Dr. Gosar. You said you are a lobbyist.
    Dr. DellaSala. I come here and I lobby to Congress like 
every other American citizen does.
    Dr. Gosar. Let me ask you another question. There is plenty 
more on your CV here.
    So, who do I believe? The false scientists or the fake 
lobbyist when you testify?
    Dr. DellaSala. I am not a fake lobbyist.
    Dr. Gosar. You put it on your CV.
    Dr. DellaSala. OK.
    Dr. Gosar. President Rigdon, I want to thank you so very, 
very much for the way the tribes handle their forests. In the 
Wallow Fire--by the way, in my first two terms, I had the 
largest, worst fire in Arizona history, the Wallow Fire. Where 
did it stop? Where the White Mountain Apache had thinned the 
forest. I mean incredibly. It knocked it down. Plenty of facts 
along that aspect. But it goes over and over again what your 
tribes have been able to do that we haven't been able to do. 
So, I want to say thank you so very, very much in regards to 
that.
    Is there more that you can do? I know that Steve Pearce 
from New Mexico has really sought to get the tribes involved in 
forest management to lands associated and close by the 
proximities of the tribes.
    Mr. Rigdon. An important part of the Westerman bill, the 
activities that we talked about are the provisions for tribes, 
the Tribal Forest Protection Act and the concept of anchor 
forests I think are critical. So, I would say those type of 
things play a key role for allowing us to play a part into the 
resource discussion that is out there.
    Dr. Gosar. Mr. Fite, would you see the same incidence where 
working with the tribes in surrounding areas would be a benefit 
and very, very helpful?
    Mr. Fite. Absolutely, Congressman. There are a number of 
areas in the areas where we work where tribal forests and state 
or Federal forests are next to one another, and it is important 
to coordinate those activities just like it is important to 
work with your neighbors to make sure your neighborhood stays 
clean and safe. It is important for those owners to work with 
one another to manage their forests.
    Dr. Gosar. Mr. Chilcott, in regards to the Federal 
Government, wouldn't it be very wise to work with the tribes as 
well as the state forestry agencies to expand the forest 
management?
    Mr. Chilcott. In my opinion, absolutely.
    Dr. Gosar. And how fast do you think that could be done.
    Mr. Chilcott. By the Federal Government?
    Dr. Gosar. No. By the state government.
    Mr. Chilcott. I think the state of Montana works very well 
with our tribal partners.
    Dr. Gosar. I appreciate it.
    Thank you, Mr. Chairman. I yield back.
    Mr. Westerman. Thank you, Dr. Gosar.
    The Chair now recognizes the Ranking Member, Mr. McEachin, 
who wishes to enter something into the record.
    Mr. McEachin. Thank you, Mr. Chairman. I would ask 
unanimous consent to enter into the record a report by the 
Dogwood Alliance that details exactly why logging, even when it 
results in durable forest products, does not result in a net 
gain in carbon emissions. Again, I ask for unanimous consent to 
enter this into the record.
    Mr. Westerman. Without objection.
    I thank the witnesses for their valuable testimony and the 
Members for their questions. The members of the Committee may 
have some additional questions for the witnesses, and we will 
ask you to respond to these in writing. Under Committee Rule 
3(o), members of the Committee must submit witness questions 
within 3 business days following the hearing by 5:00 p.m., and 
the hearing record will be held open for 10 business days for 
these responses.
    If there is no further business, without objection, the 
Subcommittee stands adjourned.

    [Whereupon, at 4:21 p.m., the Subcommittee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

Rep. Westerman Submissions

                   National Wild Turkey Federation,
                                  Edgefield, South Carolina

                                                      June 26, 2017

Hon. Rob Bishop, Chairman,
Hon. Raul Grijalva, Ranking Member,
House Committee on Natural Resources,
House of Representatives,
Washington, DC 20515.

    Dear Chairman Bishop and Representative Grijalva:

    On behalf of the National Wild Turkey Federation (NWTF) and its 
230,000 members, we urge you to take swift Committee action on H.R. 
2936 the Resilient Federal Forest Act of 2017. The NWTF is a leader in 
wildlife habitat conservation in North America and is dedicated to the 
conservation of the wild turkey and preservation of our hunting 
heritage. We are currently working toward our 10-year Save the Habitat. 
Save the Hunt. initiative in which we aim to conserve or enhance 4 
million acres of critical habitat, recruit 1.5 million hunters and open 
500,000 acres for outdoor enjoyment.
    Active forest management is crucial to establishing healthy and 
sustainable forests and decisions for forest management should be based 
on sound science. As such, the common sense solutions offered in H.R. 
2936 are imperative to the health and future of our nation's forests 
and important to the NWTF to help achieve our objectives. In total, 
H.R. 2936 has many reasonable solutions to the challenges that the 
managing agencies face to increase the pace and efficiency of active 
forest management on our nation's federal lands. We take this 
opportunity to highlight those solutions that we believe will make the 
most immediate difference and offer recommendations as to how we 
believe the bill can be further improved.
    We support increased availability for Categorical Exclusions (CE) 
in order to deal more effectively and efficiently with threats like 
pests and disease and for addressing urgent wildlife needs like 
critical habitat for endangered species. We are especially supportive 
of the CE that will allow for activities that enhance early 
successional forests for wildlife habitat. Unlike some critics of CEs 
who will suggest, they do not exempt the action from the National 
Environmental Policy Act (NEPA), rather they apply the NEPA review to 
like or similar actions to expedite the process. These are administered 
under Council on Environmental Quality regulations and other guidance. 
Increased use of CEs is one of the best opportunities we have in the 
short term to increase the pace of active forest management.
    Funding the cost of fighting catastrophic wildfires outside of the 
agency budget is paramount to the agency's ability to deliver on other 
aspects of their mission. We are supportive of a fix that will allow 
catastrophic wildfires to be considered a disaster. Until agencies are 
freed from the burden of fighting catastrophic wildfires through their 
annual budgets we will be unable to make meaningful progress toward 
proactive forest management. We recommend capping the firefighting 
budget at the current 10-year average to protect further erosion of the 
U.S. Forest Service budget in other important mission delivery areas.
    We support the bill's provisions for large scale reforestation on 
fire-impacted lands. While public input and review is essential to 
public lands management, currently it can result in delayed action and 
result in an inability to accomplish the necessary objectives. We 
believe the deadlines set for plan development and public input, as 
well as the prohibition on restraining orders and preliminary 
injunctions strike a reasonable balance. We recommend that this 
provision of the bill clarify that proper ecological restoration is 
allowed as a mechanism to salvage forests post catastrophic events as 
reforestation may not always be the best action for the ecological 
good.
    The NWTF strongly supports arbitration as an alternative to 
litigation. This will conserve valuable U.S. Forest Service resources 
and expedite work getting done on the ground. Additionally, we support 
the provision that does not allow plaintiffs challenging a forest 
management activity to receive any award or payment obligated from the 
Claims and Judgment Fund.
    We support the approach for allowing evaluation of only action/no-
action alternatives for collaborative Forest Plans, Resource Advisory 
Committee and Community Wildfire Protection Plan projects. Limiting the 
number of alternatives will expedite the development of environmental 
assessments and allow work to get done on the ground more quickly. We 
also support the requirement to look at consequences of a no-action 
alternative as a no-action decision would still have an impact on the 
resource.
    We understand budget concerns counties face and are supportive of a 
portion of retained receipts from stewardship contracts going to the 
counties. Stewardship Contracting is an important tool for active 
forest management. Ultimately this change will remove one impediment to 
utilizing Stewardship Contracting and help garner support from the 
counties. We recommend modifying this section to reflect that payment 
should come only from retained receipts on completed projects, versus 
strictly from timber value within ongoing projects. This will maintain 
the ``exchange of goods for services'' function of Stewardship 
Contracting while also preserving the balance of timber dollars and the 
investment of matching funds from organizations like the NWTF to expand 
the scope and scale of projects, thus accomplishing more active 
management and fire protection across the landscape and within 
counties.
    We appreciate the recognition of the importance of funding planning 
activities for forest management. We are concerned that the provision 
could potentially provide justification for the U.S. Forest Service 
staff to refrain from fully utilizing product value and partner match 
dollars for on the ground work. While we feel the 25% threshold is too 
high, the provision of allowing some of the stewardship project 
revenues to cover the costs of planning additional projects could be 
beneficial and incentivize project planning.
    We also appreciate the common-sense amendments to the Endangered 
Species Act (ESA) that will improve the process of protecting 
endangered and threatened species and their habitat. The bill overturns 
the ``Cottonwood'' court decision, which directs that if additional 
critical habitat is designated under an approved Forest Plan or 
Resource Management Plan, a section 7 programmatic re-consultation of 
the entire Forest Plan needs to be done. The U.S. Fish and Wildlife 
Service and the Obama Administration argued that the section 7 
consultation needs only to be done on the portion of the project 
covering the additionally designated acreage of critical habitat. The 
remedy in this bill will greatly reduce the debilitating process that 
the federal court decision directs. The bill also affirms current U.S. 
Fish and Wildlife Service policy that no ESA section 7 consultation is 
required if the U.S. Forest Service or Bureau of Land Management 
determines through informal consultation that the proposed action will 
not likely have an adverse affect on species or critical habitat. We 
further support the 90 day threshold on a CE established by this bill 
because it will conserve agency resources and expedite management 
activities on the ground.
    We commend Congressman Westerman, the co-sponsors, and Chairman 
Bishop for their dedication to restoring and maintaining our federal 
forests under management informed by science, and offering the 
appropriate reforms to management practices. We respectfully urge that 
you expeditiously report H.R. 2936 out of Committee and to the House 
floor.

            Sincerely,

                                      Rebecca A. Humphries,
                                           Chief Executive Officer.

                                 ______
                                 

                   National Wild Turkey Federation,
                                  Edgefield, South Carolina

                                                 September 27, 2017

Hon. Bruce Westerman, Chairman,
House Subcommittee on Oversight and Investigations,
Committee on Natural Resources,
Washington, DC 20515.

    Dear Chairman Westerman:

    Thank you for your continued dedication to improving the management 
of our federal forests to reduce wildfire threats and improve wildlife 
habitat, by holding today's hearing ``Exploring Solutions to Reduce 
Risks of Catastrophic Wildfire and Improve the Resiliency of National 
Forests.'' As you know, the National Wild Turkey Federation (NWTF) 
strongly supports H.R. 2936, your ``Resilient Federal Forests Act of 
2017.'' We request that you submit this letter and the attached letter 
that we provided for H.R. 2936 previously, for the record of today's 
Subcommittee hearing.

    The NWTF is committed to working with you to pass H.R. 2936, and to 
working with the Senate on their Federal forest reform and fire-
borrowing legislative initiatives. We acknowledge the Senate's 60 vote 
threshold to pass a bill, and are prepared to work with the House and 
Senate to achieve a bill that satisfies our principles, can get 60 
votes in the Senate, and that will be signed by the President. Please 
let me know what else we can do to help you in this effort. Thank you 
for your continued commitment to science-based natural resources 
management.

            Sincerely,

                                      Rebecca A. Humphries,
                                           Chief Executive Officer.

                                 ______
                                 

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

Rep. Westerman Submissions

    --  Article titled ``Carbon, Fossil Fuel, and Biodiversity 
            Mitigation With Wood and Forests,'' from the 
            Journal of Sustainable Forestry, published March 
            28, 2014.

    --  Letter from James D. Ogsbury, Executive Director of the 
            Western Governors' Association to Chairman Bruce 
            Westerman and Ranking Member A. Donald McEachin 
            dated September 26, 2017.

Rep. McEachin Submission

    --  Report titled ``The Great American Stand: U.S. Forests 
            and the Climate Emergency--Why the United States 
            needs an aggressive forest protection agenda 
            focused in its own backyard,'' published by Dogwood 
            Alliance.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
